<html>
<title> - [H.A.S.C. No. 112-159] UPDATE ON THE EVOLVING SECURITY SITUATION IN THE DEMOCRATIC REPUBLIC OF THE CONGO AND IMPLICATIONS FOR U.S. NATIONAL SECURITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                         [H.A.S.C. No. 112-159] 
                    UPDATE ON THE EVOLVING SECURITY 
                      SITUATION IN THE DEMOCRATIC 
                       REPUBLIC OF THE CONGO AND 
                IMPLICATIONS FOR U.S. NATIONAL SECURITY

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           DECEMBER 19, 2012

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
79-557                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7314031c33100600071b161f035d101c1e5d">[email&#160;protected]</a>  

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               CHELLIE PINGREE, Maine
ROB WITTMAN, Virginia                LARRY KISSELL, North Carolina
DUNCAN HUNTER, California            MARTIN HEINRICH, New Mexico
JOHN C. FLEMING, M.D., Louisiana     BILL OWENS, New York
MIKE COFFMAN, Colorado               JOHN R. GARAMENDI, California
TOM ROONEY, Florida                  MARK S. CRITZ, Pennsylvania
TODD RUSSELL PLATTS, Pennsylvania    TIM RYAN, Ohio
SCOTT RIGELL, Virginia               C.A. DUTCH RUPPERSBERGER, Maryland
CHRIS GIBSON, New York               HANK JOHNSON, Georgia
VICKY HARTZLER, Missouri             BETTY SUTTON, Ohio
JOE HECK, Nevada                     COLLEEN HANABUSA, Hawaii
BOBBY SCHILLING, Illinois            KATHLEEN C. HOCHUL, New York
JON RUNYAN, New Jersey               JACKIE SPEIER, California
AUSTIN SCOTT, Georgia                RON BARBER, Arizona
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                    Lauren Hauhn, Research Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Wednesday, December 19, 2012, Update on the Evolving Security 
  Situation in the Democratic Republic of the Congo and 
  Implications for U.S. National Security........................     1

Appendix:

Wednesday, December 19, 2012.....................................    57
                              ----------                              

                      WEDNESDAY, DECEMBER 19, 2012
UPDATE ON THE EVOLVING SECURITY SITUATION IN THE DEMOCRATIC REPUBLIC OF 
         THE CONGO AND IMPLICATIONS FOR U.S. NATIONAL SECURITY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     3

                               WITNESSES

Affleck, Ben, Founder, Eastern Congo Initiative..................    36
Carafano, Dr. James Jay, Vice President, Foreign and Defense 
  Policy Studies, The Heritage Foundation........................    34
Carson, Hon. Johnnie, Assistant Secretary of State for the Bureau 
  of African Affairs.............................................     6
Chollet, Hon. Derek, Assistant Secretary of Defense for 
  International Security Affairs.................................     4
Frazer, Dr. Jendayi E., Ph.D., Distinguished Service Professor, 
  Carnegie Mellon University.....................................    31

                                APPENDIX

Prepared Statements:

    Affleck, Ben.................................................    99
    Carafano, Dr. James Jay......................................    88
    Carson, Hon. Johnnie.........................................    70
    Chollet, Hon. Derek..........................................    65
    Frazer, Dr. Jendayi E........................................    79
    McKeon, Hon. Howard P. ``Buck''..............................    61
    Smith, Hon. Adam.............................................    63

Documents Submitted for the Record:

    ``The Democratic Republic of Congo: Taking a Stand on 
      Security Sector Reform,'' by Ben Affleck, Founder, Eastern 
      Congo Initiative...........................................   113

Witness Responses to Questions Asked During the Hearing:

    Mr. Forbes...................................................   137
    Mr. Johnson..................................................   138
    Ms. Sanchez..................................................   137
    Ms. Speier...................................................   138

Questions Submitted by Members Post Hearing:

    Mr. Garamendi................................................   143
UPDATE ON THE EVOLVING SECURITY SITUATION IN THE DEMOCRATIC REPUBLIC OF 
         THE CONGO AND IMPLICATIONS FOR U.S. NATIONAL SECURITY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Wednesday, December 19, 2012.
    The committee met, pursuant to call, at 10:07 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Good morning, ladies and gentlemen, the House Armed 
Services Committee meets today to receive testimony on the 
situation in the Democratic Republic of the Congo.
    Before I go any further, though, I want to acknowledge that 
this is our last hearing that we will hold this Congress, and 
we are losing several Members off of our committee. And I just 
want to mention their names: Mr. Bartlett, Mr. Akin, Mr. 
Platts, Mr. Rooney, Mr. Schilling, Mr. Griffin, Mr. West, and 
Mr. Young, on our side of the aisle; and Mr. Reyes, Mr. 
Heinrich, Ms. Pingree, Mr. Critz, Ms. Sutton, Ms. Hochul, Mr. 
Ryan, on the other side.
    So we are losing a lot of Members. We want to let them know 
they will be missed, and I hate to see you leaving.
    I guess you feel the same about them, too, right?
    Mr. Smith. Yes, Mr. Chairman, yes.
    I mean, this is a committee that, you know, the expertise 
is critical. And while we all replenish and restock and move 
forward, but as Members leave, we lose their expertise and 
their experience on this committee. And all of those Members 
have served this committee very, very well, and their expertise 
will be missed.
    So we appreciate their service to this committee. They have 
been part of what, you know, has given us our success as a 
bipartisan and successful committee. So I appreciate your 
bringing attention to their service.
    The Chairman. Thank you. Some of them are freshmen that 
have been here one term. Some, like Mr. Bartlett, has been 
here, we came together 20 years ago, so a lot of memories.
    I want to start this morning by thanking my colleague, the 
committee's ranking member, Mr. Smith, for suggesting that we 
hold this hearing on the DRC [Democratic Republic of the 
Congo]. I believe it will help the committee to understand the 
complexity of some of the issues within Central Africa. The 
situation in the Democratic Republic of the Congo continues to 
evolve and is driven by a complex interplay of regional power 
dynamics as well as an intricate web of economic and social 
issues.
    What is clear is that the situation in the DRC is tragic 
for the innocent people caught in the conflict; innocent people 
who are simply trying to raise their families, and live their 
lives. As I have followed the media coverage of the situation 
in the DRC, I can't help but reflect on the millions of 
innocent people around the world who are caught in 
fundamentally unjust and socially complex situations. These 
situations can make anyone's heart break and, naturally, leads 
one to consider the simple question, what can be done?
    I know one thing, it sure makes me appreciate our country. 
You know, I have heard that less than 2 percent of the people 
that have ever lived here on the Earth have lived under the 
kind of freedoms that we enjoy. We are so blessed, and when we 
see how innocent lives are--how people are hurt so much by some 
of the things that are happening around the world, it just, 
again, really makes me appreciate home.
    The question, and likewise, the answer, becomes more 
complex as we contemplate what can be done within the context 
of U.S. national security interests, constrained budgets, 
ongoing commitments in Afghanistan and around the globe, and 
potential future contingencies that the military has to be 
prepared to execute. Given the looming threat of sequestration, 
or further cuts to the military, I believe most of us on this 
committee have become ever more focused on ensuring our 
military's missions are both essential and appropriately 
tailored.
    That said, there may also be options outside of the DOD 
[Department of Defense] to address the situation in the DRC. I 
understand that, in the recent past, the Department of State 
conducted important diplomatic efforts, such as the Tripartite 
Plus, which furthered stability in Central Africa and within 
the DRC, in particular.
    Although the Administration is no longer pursuing this 
particular effort, perhaps there are other similar 
opportunities, given how the situation has negatively evolved 
in the DRC. Moreover, it seems the U.S. could pursue deeper 
diplomatic engagement with regional partners and our allies to 
leverage their knowledge, expertise, and resources to address 
this issue.
    Indeed, the world remains a complex and dangerous place. We 
cannot neglect to consider the linkages between instability in 
Central Africa and the global terrorist threat. But from 
Afghanistan, to Syria, to Iran, to North Korea, we also must 
recognize the existence of nonstate actors and regimes that 
directly threaten the United States and our allies. Therefore, 
we must ensure that our military is sufficiently resourced and 
that our national leaders prioritize our defense resources 
toward efforts that are appropriate for the U.S. military and 
our national vital security interests.
    I look forward to learning more about the situation on the 
ground, as well as what the U.S. Government is doing to address 
the situation in the DRC.
    Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 61.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman, and I thank you very 
much for taking the time to hold this hearing.
    This is a very important issue. As you described, the 
situation in eastern DRC is dire. It is the largest 
humanitarian crisis, I think, that too few people have heard 
of. By some estimates, in the wars that have gone on there over 
the course of the last 15 to 20 years now, nearly 5 million 
people have been killed; many more wounded, injured, raped, 
displaced. It is a place where a lot of people are suffering. 
And it is a place where I believe we can make a difference in 
helping to reduce that suffering.
    Stability in the region is incredibly important to the 
United States. We have key partners in that area that we have 
worked with in Uganda and Rwanda, as we have dealt with 
situations in Somalia and the Horn of Africa, and the 
instability coming out of the DRC is a threat to all of that.
    We have seen, you know, in recent months that Africa is 
increasingly important in our national security interests. The 
instability there is giving rise to the many Al Qaeda-inspired 
insurgencies and that instability threatens our security. So 
one of the biggest purposes of this hearing is to get a greater 
feel for what the Department of Defense can do in that region 
to help. The biggest problem in eastern DRC is a lack of 
governance, a lack of the rule of law, and just a rogues' 
gallery of warlords, revolutionaries, and violent groups and 
individuals have taken advantage of that ungoverned space and 
created no-ending problems. So building toward greater security 
and stability in that region, has to be our focus.
    Now, I know the DOD has done some work in that region. We 
are currently working with the Ugandan army and dealing with 
the Lord's Resistance Army, one of those revolutionary groups 
that has helped to destabilize the DRC, but we have also in the 
past tried to work with the DRC's military, training one 
battalion a few years back, to very, you know, strong success. 
That battalion is considered to be able and capable, but it is 
too small to make the big difference that needs to be made in 
that region. So I believe there is a critical role that the DOD 
can play in building the security capacity in the eastern DRC 
and working with the surrounding nations, like Rwanda and 
Uganda and Burundi and others that are critical to bring 
stability to us. So we want to explore further how DOD can be 
helpful.
    And obviously, there is a huge diplomatic element to this 
as well. I think it is critically important that the U.S. 
engage, that the U.N. [United Nations] engage a high level 
envoy to that region, either from the U.S. or the U.N., can 
make a critical difference in bringing the partners together. I 
know Ambassador Carson has been working--or, sorry, Secretary 
Carson has been working on those issues, and others have as 
well. And we are anxious to hear more about what we can do to 
help move forward those efforts and be successful in the 
region.
    This is something that does matter to us. In addition to 
the security issues, there is incredible economic opportunity 
in this region of Africa, economic opportunity for trade, 
partnerships with U.S. businesses. But we have to get the 
stability there in order to take advantage of those 
opportunities.
    So, again, I thank the chairman for having this hearing. I 
look forward to the testimony. I look forward to learning what 
more we can do to help the situation in the eastern DRC.
    Thank you, I yield back.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 63.]
    The Chairman. Thank you.
    We will have two panels today. The first panel we have the 
Honorable Derek Chollet, from the Department of Defense. He is 
Assistant Secretary of Defense for International Security 
Affairs. The Honorable Johnnie Carson, the Assistant Secretary 
of State for the Bureau of African Affairs.
    Mr. Chollet.

STATEMENT OF HON. DEREK CHOLLET, ASSISTANT SECRETARY OF DEFENSE 
               FOR INTERNATIONAL SECURITY AFFAIRS

    Secretary Chollet. Thank you, Mr. Chairman, and Ranking 
Member Smith, and the Members of this committee. Thank you for 
this opportunity to discuss the urgent crisis in the Democratic 
Republic of the Congo and the struggle to bring about long-term 
stability to the people of DRC and the Great Lakes region. I 
would like to submit my full statement for the record and offer 
some brief opening remarks.
    The Chairman. Both of your statements will be included in 
the record, with no objection.
    Secretary Chollet. Mr. Chairman, this committee knows well 
that the U.S. has many competing security priorities in Africa, 
from Somalia to Sudan, to Libya, to Nigeria, to Mali, but the 
DRC also remains important, both because of the potential 
opportunity lasting stability would bring but also because of 
the imperative to prevent mass atrocities, which is a priority 
for this Administration.
    One of the key threats facing Congolese civilians, 
particularly in the eastern DRC, is a wide array of violent 
armed groups, most notoriously including the M23 [March 23 
Movement], the Lord's Resistance Army, and the remnants of the 
genocidal militias, now calling themselves the FDLR [Democratic 
Forces for the Liberation of Rwanda]. But undisciplined state 
security forces have also proven to be a danger to civilians, 
particularly when the forces are not well supported, have 
absorbed armed groups without vetting for human rights abuses, 
operate under a separate chain of command, or have not been 
trained in their legal obligations.
    The confluence of such security concerns is why the Defense 
Department is closely following the security developments in 
DRC and the Great Lakes Region and are actively involved, along 
with our State Department colleagues, to address them.
    The unfolding crisis highlights the Congolese government's 
failure to provide effective security, governance, and services 
in the eastern provinces. It has also highlighted the continued 
political and economic tensions between the DRC and its eastern 
neighbors, especially Rwanda. Outside support, in particular 
from Rwanda, has enabled the M23 to be the threat it is today 
and poses a serious challenge to the efforts to stabilize 
eastern DRC and ensure the protection of civilians.
    As President Obama made clear yesterday in a phone call 
with Rwandan President Kagame, any support to M23 is 
inconsistent with Rwanda's desire for stability and peace.
    Although the Rwandan military remains a valuable and 
capable partner in peacekeeping operations outside the 
immediate region, based on their support for M23, the 
Administration has suspended Rwanda's foreign military 
financing. As a situation in eastern Congo develops, we will 
continue to monitor reports of external support closely and 
respond appropriately, including by reviewing our assistance.
    Inside the DRC, the U.S. is prioritizing security sector 
reform. This means working with our partners and the DRC to 
develop a comprehensive approach that addresses all three 
elements of security sector: the Congolese defense forces, 
military justice, and the police.
    We must work to develop more professional forces that 
respect human rights and protect both the DRC's territorial 
integrity and population. In this regard, the Defense 
Department has provided training to the Congolese military, 
including the training of a light infantry battalion in 2010.
    Sexual- and gender-based violence prevention and human 
rights training were incorporated in every aspect of this 
effort. In addition to the ongoing training on human rights and 
law, the Defense Department engagements with the FARDC 
[Military of the Democratic Republic of the Congo] have 
included logistics, exercise participation, basic military 
intelligence training, military medicine, humanitarian 
assistance, and humanitarian mine action. Moving forward, the 
Defense Department stands ready to work with our state 
colleagues ensuring the best way ahead in supporting security 
sector reform, including by providing additional infantry 
training for the FARDC.
    Mr. Chairman, the scale of the need is significant. To 
date, we have trained one battalion of 500 soldiers in a 
military that numbers approximately 150,000. Other European and 
African partners have also provided training, but the FARDC 
absorptive capacity for assistance is limited. The Congolese 
Defense Ministry has been slow to respond to our requests for 
the provision of appropriate personnel for training and 
information necessary for congressionally mandated human rights 
vetting. The lack of language capacity further inhibits 
training opportunities.
    While the DRC continues to work to develop its own security 
capabilities, the United Nations peacekeeping operation or 
MONUSCO [United Nations Organization Stabilization Mission in 
the DRC], remains essential in providing security for the 
civilian population in the DRC. MONUSCO has a challenging 
mandate in a very fluid security climate. We are reviewing 
options for improving MONUSCO's ability to meet the civilian 
protection requirements in the DRC.
    To assist MONUSCO, the Defense Department has secunded 
three U.S. military officers who are helping to support 
operational efforts and ensuring an efficient flow of 
information between MONUSCO headquarters and field components.
    Despite many challenges, we have an interest, an enduring 
interest, in helping develop a more capable Congolese military, 
and this fits within Secretary Panetta's broader policy 
emphasis on building partner capacity. Our persistent 
engagement helps our partners to provide for their own 
security. These relationships can also foster respect for the 
rule of law and human rights.
    Mr. Chairman, Ranking Member Smith, I am grateful for the 
efforts of Congress, and specifically this committee, for 
continuing to shine a light on this important issue, one that 
deserves attention on a continent crowded with security 
challenges. And I should also note the indispensable work of 
the many nongovernmental organizations, who not only provide 
policy advice but are helping people on the ground in the DRC 
each day.
    Thank you for the opportunity to discuss this important 
issue with you today, and I look forward to your questions.
    [The prepared statement of Secretary Chollet can be found 
in the Appendix on page 65.]
    The Chairman. Thank you very much.
    Dr. Carson, Secretary Carson.

STATEMENT OF HON. JOHNNIE CARSON, ASSISTANT SECRETARY OF STATE 
               FOR THE BUREAU OF AFRICAN AFFAIRS

    Secretary Carson. Mr. Chairman, Ranking Member Smith, 
Members of the committee, thank you very, very much for the 
invitation to testify today on the crisis unfolding in the 
eastern Democratic Republic of the Congo, also referred to as 
the DRC.
    The security and humanitarian situation in the DRC is the 
most volatile and violent in Africa today. An estimated 5 
million people have lost their lives since 1998, and millions 
more have been uprooted and displaced. The people of North and 
South Kivu provinces in particular, have faced repeated cycles 
of conflict, atrocities, and displacement, with the current 
crisis simply being the latest iteration.
    The rapid fall of Goma last month to the Congolese rebel 
group known as the M23 provided a stark reminder that the root 
causes of the entrenched instability and recurring conflicts in 
the DRC and the region remain unresolved.
    At the highest levels of the United States Government, we 
are committed to helping the DRC and its neighbors in this 
cycle of violence and instability, so that we do not find 
ourselves back here in 3 years facing yet another crisis in 
eastern DRC.
    Secretary Clinton, Ambassador Rice, Under Secretary For 
Political Affairs Ambassador Wendy Sherman, and I have all 
spoken or met with senior Congolese, Rwandan, Ugandan, and U.N. 
officials in the past weeks and months to advocate for a rapid 
and peaceful resolution to the current crisis.
    I have traveled to the region just last month with my 
British and French counterparts to press the Congolese, 
Rwandan, and Ugandan governments to work together to stop the 
crisis and to address the underlying causes of instability. All 
three governments reiterated to us their commitment to these 
shared goals. In the U.N. Security Council, we have taken 
action to ensure that five of the most senior M23's most 
abusive commanders are now under targeted sanctions, and we 
have placed those same individuals under U.S. sanctions.
    Talks between the DRC government and the M23 began on 
December 9, in Kampala, Uganda, and are being mediated by 
Uganda as the chair of the International Conference on the 
Great Lakes Region, known as the ICGLR.
    While the two sides have yet to begin substantive talks, 
the current cease-fire in the eastern DRC is holding, and the 
parties continue to express commitment to a dialogue.
    Much of the M23's military prowess and success would not 
have been possible without outside support. There is a 
creditable body of evidence that corroborates the assertions of 
the U.N. Group of Experts that the Rwandan government provided 
significant military and political support to the M23.
    While there is evidence of individuals from Uganda 
providing support to the M23, we do not have a body of evidence 
suggesting that the Ugandan government has a policy of 
supporting the M23. Nonetheless, we continue to urge Ugandan 
officials to ensure that supplies to the M23 do not originate 
or transit through Ugandan territory.
    We have not limited our response to diplomacy alone. As 
required by the Fiscal Year 2012 Appropriations Act, Secretary 
Clinton suspended foreign military financing, or FMF, to Rwanda 
in fiscal year 2012 because of its support to the M23.
    The Department continues to closely monitor reports of 
external support, and we will continue to respond 
appropriately, including by reviewing our assistance to deter 
this support if it should develop.
    The highest levels of the United States Government are 
committed to helping the DRC and the region achieve a 
sustainable peace. As my colleague, Mr. Chollet, said, 
President Obama spoke yesterday with President Kagame and 
underscored that any support to the M23 is inconsistent with 
Rwanda's desires for stability and peace in the region.
    President Obama emphasized to President Kagame the 
importance of permanently ending all support for armed groups 
in the DRC. Abiding by the recent communication that he made in 
Kampala, along with Presidents Kabila and Museveni, and 
reaching a transparent and creditable political agreement that 
includes an end to impunity for M23 commanders and others who 
have committed serious human rights abuses. President Obama 
believes that from this crisis should emerge a political 
agreement that addresses the underlying regional security, 
economic, and governance issues, while upholding the DRC's 
sovereignty and territorial integrity. President Obama has also 
delivered the message to President Kabila that the DRC must 
take concrete steps toward security sector reform and improve 
governance in order to reach a lasting peace in eastern DRC.
    Looking forward, we are using all the tools at our disposal 
to help address and end this crisis. We are monitoring 
humanitarian needs and working to mobilize resources to ensure 
continued emergency assistance to civilians in need.
    We are calling upon everyone involved in the conflict to 
maintain the current cease-fire, to permit humanitarian access, 
and to pursue a sustainable political resolution through honest 
and meaningful dialogue.
    While the talks between the M23 and the DRC government 
continue, we believe that direct dialogue between Presidents 
Kabila, Kagame, and Museveni is paramount to achieving a long-
term, durable solution in the region.
    Some of the root causes of this conflict can only be 
addressed through government-to-government dialogue and 
negotiation. These include issues of land tenure, refugee 
resettlement, the illegal exploitation of natural resources, 
border security, and support networks for armed groups.
    While the responsibility to implement change rests first 
and foremost with the governments of the region, we encourage 
the United Nations Secretary General to appoint a high-level 
U.N. special envoy to engage the relevant countries on a 
sustained basis to help them reach a durable political 
resolution and ensure the successful implementation of that 
resolution over the long term.
    Throughout this peace-building process, civilian protection 
is and must remain a priority. The U.N. peacekeeping mission in 
the DRC, MONUSCO, has come under very heavy scrutiny in recent 
weeks. While we believe that MONUSCO's performance has been 
acceptable given the very difficult circumstances, there is 
always room for improvement.
    We and our fellow U.N. Security Council members and troops-
contributing countries are reviewing the proposals on the table 
to improve and strengthen MONUSCO's capacity to protect 
civilians and to counter armed groups. We are encouraging our 
partners to ensure that any new efforts are coordinated with 
and perhaps even integrated into the U.N. peacekeeping efforts.
    In the meantime, we remain committed to supporting 
MONUSCO's robust implementation of its current mandate. The 
primary responsibility for protecting the DRC and the Congolese 
people rests with the DRC government itself.
    The crisis over the past few months has demonstrated to 
devastating effect the critical need for a professional and 
capable Congolese army that can protect the country's citizens. 
To reach a sustainable peace, the DRC government must 
accelerate its efforts towards comprehensive security sector 
reform. We have and will continue to work with the DRC 
government to professionalize its military, including 
continuing our training to army officers and support to the 
armed forces' military justice capacities.
    Along with military reform, the DRC government must expand 
governance across the country. The governance vacuum that 
exists in parts of the country has allowed armed groups to set 
up parallel civil administrations and to exploit the 
population.
    Efforts to expand governance must include electoral reform, 
holding long-delayed provincial and local elections, and 
strengthening state institutions to provide much-needed public 
services.
    We believe that the time has come for the DRC and the 
international community to permanently break the cycle of 
violence and impunity that exists in the region.
    Today's crisis is a deep tragedy, but it also offers an 
opportunity to help the DRC and the region to set a more 
sustainable course toward peace, prosperity, and long-term 
stability.
    The Chairman. Mr. Secretary.
    Secretary Carson. We urge the international community, the 
Great Lakes Region, and the Congolese people to demonstrate the 
resolve necessary to achieve this peace and prosperity, and 
achieve the goals that we all seek.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Carson can be found in 
the Appendix on page 70.]
    The Chairman. Thank you very much.
    Secretary Chollet, please describe the strategic defense 
priorities within Africa, and how does the situation in the DRC 
situate within these priorities?
    Secretary Chollet. Sir, thanks for the question.
    First and foremost, the priority recently has been on 
counterterrorism issues, and we have seen that--oh, I am sorry. 
Can you hear me right now?
    The Chairman. Yes.
    Secretary Chollet. Recently, the top priority is, of 
course, always with us, the Department of Defense, to protect 
the American people, and so we have been acutely focussed on 
counterterrorism issues throughout the continent, and that is, 
I think, most recently North Africa, where that has gotten a 
tremendous amount of attention.
    We are also, though, very, very keenly interested in the 
overall security as it bleeds into the atrocities prevention 
concerns that we have. And the Great Lakes Region, of course, 
the brutal history of that region is something that we are all 
very well aware of, and that is why we have sought to focus 
some of our Defense Department efforts on improving the 
capacity of partner countries to ensure that hardships can be 
alleviated and that we can prevent atrocities.
    But to be honest, the bulk of our focus in the Department, 
and particularly our AFRICOM [U.S. Africa Command] colleagues, 
has been on the counterterrorism mission as well as building 
partnership capacity to both fight that mission but address the 
humanitarian needs as well.
    The Chairman. Secretary Carson, my understanding is that 
the State Department managed an effort known as Tripartite Plus 
to address issues in the DRC and in the region. My 
understanding is that the State Department stopped this effort 
in 2009. Can you explain why the Department of State is no 
longer pursuing this effort, and what has taken its place?
    Secretary Carson. Mr. Chairman, thank you for the question.
    Prior to 2009, there was in existence an effort called the 
Tripartite Plus. When the Obama Administration came into office 
in 2009, we contacted the leaders of the four key states in 
Uganda, Rwanda, DRC, and Burundi to ask those leaders whether 
they were interested in carrying on with the Tripartite Plus 
arrangement. There was no consensus among the states to do so. 
And in fact, Rwanda did not want to carry on the process.
    We did not, in fact, attempt to pursue it when we found 
there was division among the four countries. However, to 
maintain our high level of interest, Secretary Clinton 
appointed a Special Advisor for the Great Lakes, the late 
Howard Wolpe, who was a Member of the House of Representatives 
from the State of Michigan for many years, and he served for 
the first 2 years of the Obama administration as the special 
envoy. He passed away, and he was replaced by Special Envoy 
Ambassador Barry Walkley, an experienced diplomat who had 
served as Deputy Chief of Mission in the DRC and had served in 
a number of other francophone posts. He continues to work on 
regional Great Lakes issues, but the decision to stop the 
Tripartite Plus was based, in fact, on a reluctance of all of 
the governments in the region to carry on.
    The Chairman. Thank you very much.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Secretary Carson, Rwanda has increasingly been getting 
attention as a major source of the problem in the region. And 
obviously, there is a lot of history here going back and forth 
across the border of atrocities, frankly, committed on both 
sides, the Congolese against Rwandans, and vice versa. And 
Rwanda has an interest, obviously, in maintaining security 
across the border, but it is very clear that, you know, that 
they continue to deny involvement in M23, despite the fact that 
it is obvious that they are deeply involved in that and other 
aspects of it.
    And I think we are going to need as a country to start 
putting more pressure on Rwanda to change their behavior. And 
certainly, they are not the only part of the problem. There are 
a ton of gangs involved there. But I am curious, going forward, 
what do you think Rwanda sees as their interested in that 
region? Because, on the one hand, certainly they want to 
protect themselves from any cross-border problems. On the other 
hand, their support for M23 seems to be simply driving up 
instability, you know, and creating more armed gangs and armed 
violence right on their border. So I am curious what you think 
their thinking is on that.
    And then the final piece of it is, you mentioned, I think 
both of you mentioned it in your remarks, the minerals that are 
so important to that region. There are a lot of folks involved 
there and a lot of people making a lot of money, despite the 
chaos. They figured out some ways to work with whatever local 
warlords they need to work with to get the stuff out. To what 
extent, in your opinion, is Rwanda involved with that? Is it 
the situation that the armed gangs that are there are creating 
enough wealth for Rwanda that they have got their cut, they 
have got their deal, and they are simply trying to protect 
that? Is that part of the equation now? What is Rwanda's 
thinking, and how can we better move them toward working toward 
stability, because right now, they are not being a positive 
actor? They are not even being honest about what they are doing 
in the region. How can we improve that situation?
    Secretary Carson. Ranking Member Smith, I think there are 
several obvious reasons for Rwanda's involvement and engagement 
in the region.
    The first is their deep concern and worry about elements of 
the former Rwandan military who continue to exist in the 
eastern part of the country; the FDLR, as they are called, 
members of the Rwandan army who participated in the genocide in 
1994. Rwanda's desire is to see all of these individuals taken 
off the battlefield, brought to justice. And part of their 
actions are motivated by security and their desire to see the 
FDLR completely eliminated.
    The second desire is to ensure that all Rwandaphone 
speakers, Tutsis in the region, who cross the borders between 
Uganda, Burundi, Rwanda, and the DRC, are treated fairly; that 
they are not subject to harassment and intimidation and to 
human rights violations. And there has been a deep concern that 
many Rwandaphone speakers have been disadvantaged in the 
eastern Congo.
    And thirdly, they would like to see the issues of refugee 
resettlement taken care of. There continue to exist a large 
number of Congolese who are in refugee camps in Rwanda and in 
the region who should be allowed to go back to the east. All of 
these are things that motivate their interest in the area.
    Mr. Smith. Thank you.
    I have one more question, but I see we have been joined by 
Congresswoman Bass, so I want to ask unanimous consent that 
noncommittee Members be allowed to participate in today's 
hearing after all committee Members have had an opportunity to 
ask questions, if the chairman will permit.
    The Chairman. No objection. So ordered.
    Mr. Smith. I will tell you, Mr. Chollet, the question on 
the other side of it is, whatever role Rwanda may be playing 
and that the DRC is clearly the main source of the problem, 
that they cannot provide adequate security in that region. You 
mentioned in our efforts to train battalions there, we have 
legislative requirements in terms of human rights standards 
that need to be met by what any country that the DOD is going 
to be involved in training their military, and that the DRC 
struggles to meet those standards. Can you talk a little bit 
more about that, and what the DRC would have to do and how 
problematic it is, the Kabila government is, in getting to a 
solution to this problem?
    Secretary Chollet. Thanks for the question. You are 
absolutely right. The human rights concerns are huge in the DRC 
in terms of the--it is the FARDC, which is one of the reasons 
why we do have an interest in helping to train them. Because we 
have shown in the one battalion that we have trained, we have 
seen, as you pointed out, it is relatively successful. And that 
battalion has not shown any real--much evidence of human rights 
abuses or the certain things that we are concerned about when 
we think about the Congolese military.
    In terms of training a second battalion, and then training 
going forward, we are engaging with the Congolese government 
about what standards they would need to achieve for us to 
proceed with doing that. In fact, there is an outstanding 
training MOU [Memorandum of Understanding] that we are awaiting 
for signature that would then perhaps allow us to move forward 
in the future in terms of----
    Mr. Smith. Are we going to be able to get that signed do 
you think? Do you think we have reached the point where that is 
going to work?
    Secretary Chollet. Well, we will see. I mean, I think we 
are prepared on our end. It is on us to work with our Congolese 
colleagues to----
    Mr. Smith. Get the DRC to agree.
    Secretary Chollet. Absolutely, absolutely. But that is a 
prerequisite for us being able to move forward for further 
training, which of course helps on the human rights abuses 
problem.
    Mr. Smith. Thank you very much. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Chairman, at the outset, today you mentioned this was 
the last hearing we would have this year, and you and the 
ranking member are always very gracious in thanking the Members 
of this committee and our witnesses for the great job that they 
do, but we want to thank both of you for your hard work and 
also maintaining--this still is probably the most bipartisan 
committee, I think, in Congress, and we appreciate your efforts 
towards that.
    Mr. Chollet, I have a question, and I don't--I support what 
you do, and I don't want you to misinterpret my question, but 
it is a question we have to ask, is, as we look--as you know, 
we have had cuts to national defense, and especially the 
Department of Defense. Some would argue $487 [billion]. It is 
really more like $800 billion in the last few years. We have 
got a half trillion we are looking at in sequestration. When 
you look at the dollars that we are spending with the DRC and 
Rwanda, can you give us any ballpark of what kind of resource 
dollars the Department of Defense is spending there? Secondly, 
are those dollars adequate? And third, how would you prioritize 
that in terms of some of the other cuts that you see coming 
down, and how do we justify that and explain that?
    Secretary Chollet. Sir, it is a great question. As you know 
very well, Secretary Panetta is seized with the issue of 
sequestration and possible future defense cuts and very 
concerned about the impact that will have on our military and 
our national security generally. So it is something that we are 
very focused on in all of the issues that we confront in the 
Department.
    You ask a very good question about a total number. I would 
like to get back to you to add up all of the different pots of 
money that are coming in, so I can give you an accurate answer. 
I can say that in the grand scheme of our spending, it is a 
relatively modest expenditure in terms of our overall defense 
spending. And we are prioritizing the areas in terms of the 
security sector reform, as I said, particularly in the Congo, 
where through education and through basic training programs, we 
can help the Congolese--lift the Congolese military up and get 
it up to the--closer to the standards that we want to see in a 
military and the standards that we think would help solve the 
problem.
    I want to stress that that is still a relatively modest 
investment of our money and time, and we find that we are able 
to get a fairly large return on that investment in terms of the 
output. But it is no secret that if we were to seek further 
defense cuts, if we were to be--those reimposed on the 
Administration, that it would--we would have to take a close 
look at all of these efforts, even as modest as the 
expenditures currently are.
    Mr. Forbes. Well, Mr. Chollet, if you don't mind, and I 
don't want to catch you off guard today, but give that some 
thought and if you would get back to us for the record on that, 
and again, just kind of pull together as best you can the 
dollars that we are spending.
    [The information referred to can be found in the Appendix 
on page 137.]
    Mr. Forbes. But also, we would love your thought, are they 
adequate?
    Secretary Chollet. Yeah.
    Mr. Forbes. I mean, are we putting the right dollars in? 
And then, third, just give us some idea of the prioritization 
because at some point in time, we have got to look at all of 
that in the grand scheme of things.
    Secretary Chollet. Absolutely.
    Mr. Forbes. And we appreciate your opinion.
    With that, Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    I would like to ask the panel what you felt like with 
regard to M23, their ultimate aims, and do you feel like that 
their threat is subsiding? Or do you think it is possible that 
it could lead to a new regional war in terms of M23's motives 
and ambitions?
    Secretary Carson. Thank you. I will take that question, 
Congressman McIntyre.
    The M23 is basically a rebel group that has been once 
integrated into the FARDC, the Congolese military, and has now 
broken away from the FARDC because they believe that the terms 
that were signed on their integration into the FARDC on March 
23rd, 2009, were broken.
    What we are seeing in eastern DRC is a rebel group that has 
defied its military command. They refused to be relocated out 
of the eastern region as units, and they refused to be 
relocated out their separate senior officers. This is at the 
heart of the current rebellion, but the origin of the M23 is 
that it was, in fact, a rebel group prior to 2009. It went 
under a different acronym then, the CNDP [National Congress for 
the Defence of the People], but it is basically a rebel group 
of military commanders who have sought to parlay their military 
influence into political influence.
    Mr. McIntyre. Do you believe their activities are going to 
lead to some kind of regional war? And how serious are their 
continuing activities?
    Secretary Chollet. That is the concern. They are a group of 
growing capability. They have shown in the recent months to be 
a match, if not a superior, of the Congolese forces. Their 
continued activity and the continued support that they get is 
something, that is the reason why we are concerned about it, 
because if this continues much longer, there is a fear that 
this would spark a deeper war, along the lines the Congo has 
unfortunately seen too much of in the last 20 years.
    The Chairman. Thank you.
    Mr. Lamborn.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    One question is, what is the estimated strength in terms of 
active participants in M23? Either one of you.
    Secretary Chollet. Roughly 1,000.
    Mr. Coffman. Roughly 1,000, and could you go over again--I 
think you mentioned that the support is coming from Rwanda. Do 
you believe, and if so, why again is Rwanda supporting M23? Why 
do you think that they are supporting M23?
    Secretary Chollet. There is, as Secretary Carson has 
outlined, there is a credible body of evidence that Rwanda is 
supporting the M23. This is the part of the conversation the 
President had yesterday with the Rwandan president. I think one 
of the reasons that there is support there, it goes to the 
origins of the group and Rwanda's interest that Secretary 
Carson outlined, is that the M23 sees themselves as the kind of 
the guardians of the Tutsi in the east, and so the argument 
would be that if they--the extent the Tutsi are threatened and 
the M23 can help protect the Tutsi in the east.
    Mr. Coffman. And what is the strength of the DRC military 
again, the army?
    Secretary Chollet. So there are roughly 150,000 total, but 
the Congo is about the size of Western Europe, so I believe the 
estimates are somewhere in the 6,000, 5,000 or 6,000 deployed 
in that--or no, there is more. That is the MONUSCO, sorry, 
5,000 or 6,000 deployed in that in the east. I don't know what 
the exact estimate of the Congolese military deployment in the 
east is because this is a vast amount of territory that the 
military is trying to cover with 150,000 troops.
    Mr. Coffman. Still, I mean, we are talking about a force of 
1,000, and so why is this such a big issue for the DRC in order 
to be able to basically prevail in this situation?
    Secretary Chollet. You want to go?
    Secretary Carson. Yeah, let me say just a slight revision. 
I think probably today, the M23 probably has some 2,000 or so 
troops. I think Mr. Chollet has pointed out the size of the 
Congo, but I think it is useful to graphically describe the 
Congo as a country which is as large as the eastern part of the 
United States, from the Atlantic to the Mississippi. It is an 
enormous country, and since the split of Sudan, it is, in fact, 
geographically, the largest in Africa.
    The eastern Congo is one of the most difficult areas in 
which to operate. It is an area that is deeply forested in some 
places, double and triple canopies. It is also an area that has 
a large number of volcanos, some of which are active, and it 
also sits in what is called the Western Rift Valley, which 
gives it both altitude and low-level depth at the same time. It 
is an area which is very difficult terrain-wise to operate in.
    I think in terms of the estimation of the number of 
soldiers that the DRC has in the eastern Congo, probably is in 
the neighborhood of somewhere around 20,000 to 30,000, 
stretched over not only the North and South Kivus but also 
Ituri. They are not only faced with the rebellion of the M23. 
There are probably at least a half a dozen to a dozen other 
smaller rebel groups operating in the area, including the FDLR, 
which is an anti-Rwandan group which is of concern to the 
government in Kigali. But they are also operating against 
probably seven or eight different groups that go under the name 
of Mai-Mai, that have a third acronym that goes behind them.
    So it is an area that is volatile. Instability prevails, 
and a number of rebel groups are operating there, which also 
requires the attention both of the FARDC, as well as the 
MONUSCO forces from the U.N.
    Mr. Coffman. Thank you, Mr. Chairman, I yield back the 
balance of my time.
    The Chairman. Thank you.
    Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you both for being with us this morning. It is 
important that we are here discussing these issues, I think, 
talking about security and the abuse of human rights in the 
DRC, and I appreciate that effort. As you stated, the violence 
that is taking place in this part of the world is really a 
threat to stability and human rights across the globe. We know 
that such injustices always are. That is why we have to set 
those priorities, as has been stated, but we have to recognize 
the reality there.
    Could you please speak specifically to the successes or 
setbacks in the efforts to professionalize the military forces 
in the DRC with regards to the effectiveness of those forces in 
combating sexual violence against women and children? To any 
extent that our efforts have been successful in this endeavor, 
how can we further support those efforts? And to the extent 
that we have seen no marked improvement, you mentioned earlier 
that indiscipline and impunity persists, what should we be 
doing to address it?
    Secretary Chollet. Thank you.
    And as I said in my statement, the sexual violence is 
something that--and preventing that is a huge priority for all 
of our programming in this part of the world, around the world, 
but particularly in this part of the world, where we have seen 
just horrific stories and accounts coming out.
    A couple of comments. First, in the specific battalion that 
we have trained, we have seen a successful effort in terms of--
so far at least--in terms of human rights abuses, lack of human 
rights abuses coming out of that group compared to the rest of 
the Congolese military. Secondly, we have a program----
    Mrs. Davis. Can I just, to what do you attribute that? What 
is the----
    Secretary Chollet. I think it is the training effort that 
we helped--to the education, the discipline that we were able 
to help instill in the command and control. The Congolese 
military is riddled with problems; among them logistics 
problems, and but simple training and education and lack of 
command and control. It is hard to keep discipline within that 
military.
    But we also have ongoing programming. In addition to these 
focused training efforts, ongoing programming on the rule of 
law and military justice, we spend a few million dollars on 
that per year to work with the Congolese military in a more 
wholesale way on helping with education and mentorship to 
ensure that the rule of law and human rights are instilled 
throughout that military. And that is programming, I think, 
that, although relatively modest, again, we see some benefit 
from.
    Mrs. Davis. And where you have seen the efforts not working 
at all, I mean, what is it that--is it the same where we see 
the successful efforts?
    Secretary Chollet. Yeah, where we are seeing--again, the 
challenges are paramount. I mean, these are forces that don't 
have a great amount of discipline, don't have great training 
and, often cases, don't have great education. As I mentioned in 
my statement, there is a real absorptive capacity problem 
within the DRC, and so it makes it even harder to try to train 
them up in a way that meets the standards that we would like to 
see in any military.
    Mrs. Davis. Did you want to comment further?
    Secretary Carson. Yes, I would. I would say that security 
sector reform in the army has been a failure for the most part. 
It is a failure because of all of the things that my colleague, 
Mr. Chollet, has said, but it is also a failure because of 
elements of corruption. Soldiers are not paid on a regular 
basis. They are not sustained and re-equipped in the field. 
They do not have appropriate housing for themselves or for 
their families. And many times, when they are sent out, they 
are basically forgotten.
    I think that one of the reasons why our 391st Battalion has 
been successful is because we put down a number of very clear 
conditions on the Government of the DRC to ensure that this 
battalion would be effective. We said to the Government, they 
must be maintained as a cohesive unit; they cannot be broken 
apart and sent to different units.
    They must be paid on a regular basis, and we even talked 
directly, and I must say, I spoke with President Kabila and 
members of his Government about this, introducing a mobile 
banking system to ensure that soldiers would be able to get 
their pay as long as they had a cell phone. This is starting to 
take place.
    We also said that they must be properly housed, and they 
must be supported with resupply. And additionally, we also 
assigned and paid for a couple of mentors to work with them 
after their training to ensure that they would retain their 
cohesiveness and their sharpness. And in fact, they have been 
very, very good, and they were a part of the counter-LRA 
[Lord's Resistance Army] operations, the counter-LRA operations 
in the northeastern part of the country for a long time.
    The Chairman. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    And Mr. Chollet, I represent Robins Air Force Base, which 
is the home of the JSTARS [Joint Surveillance Target Attack 
Radar System], and I would like to talk with you a little bit 
about both the security and the humanitarian situation in the 
Democratic Republic of the Congo and the use of our ISR 
[Intelligence, Surveillance, and Reconnaissance] platforms over 
there to assist both in the humanitarian mission and in the 
military mission. And could you speak to what is being done now 
with the use of our ISR platforms?
    Secretary Chollet. Thank you. And as you are very well 
aware, the ISR issue is incredibly important to us, and it is 
something that there is huge value in everything we are doing.
    I can say on the issue we have been talking here today 
about regarding eastern Congo, there is not much ISR work there 
that we are providing. Most of the military assistance we are 
providing is in the form of training and mentorship. And that 
is the kind of support we have been talking about.
    Obviously, the ISR question is absolutely critical when it 
comes to the C-LRA [counter-Lord's Resistance Army] mission, 
which is the northern part. And that is something that we can--
we are helping to contribute to as we are working with the 
Ugandan military on the C-LRA mission.
    Mr. Scott. We do have the ability, though, with our ISR 
platforms, especially through the JSTARS, to show the tracks of 
where rebel units are moving. And I do think that is important, 
both from a humanitarian mission and from a military mission.
    And, Mr. Carson, you said that we are going to have to 
permanently break the cycle. You used the word ``eliminated'' 
with regard to the FDLR. Certainly, what has gone on in the 
country of Africa and the human rights abuses, very few things 
in the world, I think, reach the level of the abuses that have 
been occurring there for years.
    My concern with kind of the way we try to handle these 
things through the State Department, if you will, is that we 
are always playing defense. And so if it is going to be 
necessary to eliminate organizations like the FDLR and M23 to 
permanently break the cycle, at what point are we going to help 
the Democratic Republic of Congo go on offense against these 
groups?
    Secretary Carson. Thank you for the question.
    As I said in my testimony, the responsibility for resolving 
the problems in the Great Lakes are principally the 
responsibilities of the Presidents and the leaders of the 
respective countries.
    We have to engage diplomatically with them to recognize 
that instability, violence, continued refugee flows, and 
impunity are not in the interest of any of these states. It 
requires political will on their part to recognize that it is 
in their interests to promote peace, prosperity, and stability 
not only in their countries but also in the states that border 
them.
    We will continue our diplomatic efforts, but we will also 
help, as we have pointed out, to train Congolese battalions. 
The 391st is a good example. We are committed to training a 
second battalion if the Congolese Government is prepared to 
sign an MOU with respect to how this battalion will be 
maintained.
    Mr. Scott. Mr. Carson, I am close to being out of time. Can 
I ask you something----
    Secretary Carson. Sure.
    Mr. Scott. The 391st, how many men make up that battalion? 
And how well equipped are they?
    Secretary Carson. Approximately 500 to 600. And they are 
well equipped. They have been maintained appropriately.
    Mr. Scott. Okay. I again--and I apologize for interrupting 
you. But if we are going to permanently break this cycle, you 
can't--I don't understand how diplomacy works with somebody who 
has made a living out of raping and murdering other human 
beings. And I do believe that at some point, especially with 
our--I don't think that it needs to be the United States 
military that does this, but I do believe that our ISR 
platforms are an asset that we can deliver to the people who 
are trying to get rid of the people that are committing the 
murders and the rapes over there.
    And I would just encourage that as we go forward we help 
train another battalion and that we make our ISR platforms 
available to those battalions so that they can take out people 
who, quite honestly, aren't going to stop murdering and raping 
people until they are eliminated.
    Thank you, Mr. Chairman. I yield the remainder of my time.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Ambassador Carson, the first question is for you, and it 
has to do with--has to do with training and equipping. And we 
have several tools--the State Department and the Department of 
Defense have several tools available to them. A few years back, 
last year perhaps even, we created the goal--or authorized the 
goal of a Security Contingency Fund that was created for 
complex challenges like the issues we have in the DRC. And can 
we expect to see a contingency fund proposal for the DRC in the 
future?
    For Ambassador Carson first.
    Secretary Carson. Let me say, that is under--that is under 
review, and it is quite possible that you--that you will see 
one.
    We are, as I say, looking at the prospects of trying to 
train a second battalion in the DRC, provided the Government is 
willing to commit to a number of obligations which we think are 
important to ensure the effectiveness of those who might be 
trained.
    Mr. Larsen. Would you use a different--did you use, then, a 
different source of money for the first battalion, to train the 
first battalion?
    Secretary Chollet. Yes.
    Mr. Larsen. Yes, you did? What source of money was that?
    Secretary Chollet. I think PKO [peace-keeping operations] 
funding was the----
    Mr. Larsen. Peace-keeping operations. And why would you not 
use PKO this time? Or why didn't you use Global Security 
Contingency Fund the last time?
    Secretary Carson. I think it was a matter of--yeah, well, I 
think----
    Mr. Larsen. One at a time, one at a time.
    Secretary Carson. It was a matter of what we had.
    Mr. Larsen. Okay.
    Secretary Carson. There is an enormous demand on all of our 
funding that is appropriated for Africa, both for our ACOTA 
[African Contingency Operations Training & Assistance] moneys 
as well as our PKO moneys.
    Much of what we have done in the last several years has 
been to support what has turned out to be a successful effort 
in Somalia to eliminate Al Qaeda's representatives, Al-Shabaab, 
there.
    Mr. Larsen. Right.
    Secretary Carson. So we have put a lot of money into that 
effort. And we have put a lot of money into the counter-LRA 
effort with respect to Uganda.
    Mr. Larsen. Right.
    So what would be in an MOU for the second battalion that 
wasn't in an MOU for the first battalion? Have things changed? 
Have we learned some lessons? Were things missing the first 
time around that we need to have in the second--to develop a 
second battalion, and what were those things?
    Secretary Carson. Let me--and Mr. Chollet can go into this.
    What we said to the DRC Government is that we want you to 
sign an MOU with the United Nations to prevent the recruitment 
and retention of child soldiers in your entire military--not 
just in the battalions that we--but in your entire military. 
They have now done that. That was done about 45 days go.
    We also said as a part of this MOU, there must be complete 
Leahy vetting of all of the participants who would be a part of 
this battalion.
    Mr. Larsen. Just for the committee's sake, Leahy vetting 
would be focusing on human rights.
    Secretary Carson. Exactly. Exactly.
    And we also said, you must keep this as a composite unit, 
you must pay them regularly, you must equip them. And we said, 
these are the requirements going forward.
    Mr. Larsen. So those weren't in the first MOU?
    Secretary Carson. Those are things that we have demanded 
the first time around and we are insisting upon them for this 
time. But as I said, we have expanded out because we insisted 
that they must sign a document with an action plan with the 
Government to deal with child soldiers, retention and 
recruitment across the entire----
    Mr. Larsen. So those two big issues would be different than 
the first MOU.
    Secretary Carson. Exactly.
    Mr. Larsen. What is the organic logistics capability of the 
391st? And what would you expect the logistics capability to be 
for the second battalion, as well? Getting at the point of, who 
is backing these folks up? Is it us, or is the U.N. mission? 
For the logistics--communications, transportation, moving these 
people from A to B.
    Secretary Carson. It the FARDC. It is the Government of the 
DRC that is responsible for moving these people around the 
country and providing additional equipment and supplies to 
them.
    Mr. Larsen. All right. That is great.
    Mr. Chollet, do you have anything to add to these--as 
answers to these questions?
    Secretary Chollet. No, the Ambassador has covered it quite 
well.
    Mr. Larsen. That is great.
    Thank you very much. I yield back.
    The Chairman. Thank you.
    Mr. West.
    Mr. West. Thank you, Mr. Chairman.
    And thanks, gentlemen, for being here.
    I would like to ask, we are talking about an area of 
operations here at the DRC, but I think we need to look at the 
bigger region, the area of interest. And so when we look at the 
DRC, Rwanda, Burundi, and Uganda, we talked about the M23, but 
what are the other--we kind of mentioned it--what are the other 
major nonstate, nonuniform belligerents that we have to contend 
with in this region?
    Secretary Carson. Let me say, Congressman West, there are 
probably a dozen. I don't have a list, but I will give you one 
and make sure that you do have it.
    There is the FDLR, which is comprised of former Rwandan 
soldiers who participated in the genocide.
    Mr. West. Okay.
    Secretary Carson. We know that there is a group of 
insurgents called the African Democratic Liberation Front who 
are in the eastern Congo, who are anti-Uganda and anti-
President Museveni. And they have operated across the border.
    The M23 and the M23's predecessor was something called the 
CNDP, which is a--was a rebel group.
    And there are at least 10 other groups that start off their 
rebel names with the name Mai-Mai: Mai-Mai Cheka--there are 
various groups that are based on ethnic communities and 
allegiances of rebels----
    Mr. West. So it is a multifaceted, mostly tribal-based, 
would you say?
    Secretary Carson. Yes, I would say mostly ethnically and 
regionally based.
    And someone has passed on to me----
    Mr. West. Thank God for staffs.
    Secretary Carson. That is absolutely right.
    Let me just quick--ADF, which I mentioned, ADF Nalu, an 
anti-Ugandan group; APCLS, a Mai-Mai group; FDLR, Hutus who 
carried out genocide in Rwanda; FRPI, based in the Ituri area, 
doing conflict minerals. There is the M23. There is the Raia 
Mutomboki group. There is the Mai-Mai Cheka.
    Mr. West. Well, let me get to my point because the time is 
running out. You know, I spent a few days in the military, and 
one of the things we always listened for: What are the tasks? 
So as I listened to the two gentlemen as you spoke, you talked 
about sustainable peace; you talked about training, you know, 
militaries, foreign internal defense type of mission; and then 
I also heard the term ``eliminate,'' which means that is more 
of an aggressive action.
    So what I am trying to understand, what exactly are you 
looking at being done? Because if you are talking about foreign 
internal defense, do we have the capability and the capacity 
with our SOC AFRICOM to be able to go in there and do that?
    And, furthermore, while I looked at this list of 
belligerent groups, as soon as you put American soldiers there 
in that position, I got to tell you that some of the things 
that you all were talking about reminded me of three previous 
regions that we were in: Vietnam, Afghanistan, and Somalia. And 
we didn't do so well, you know, initially.
    So what I am trying to ascertain is, what are we initially 
going in to do as far as the goal and objective at a strategic 
and an operational posture? Do we have the capability and 
capacity to do that? Do we need to go to coalition partners, 
being Britain and France? Do we need to go to the Organization 
of American States?
    And then where is the potential of mission creep and 
escalation, which is exactly what we saw happen in Somalia? And 
we know how that kind of dovetailed off in that battle at 
Mogadishu. And I don't think you mentioned the amount of 
warlords, did you?
    Secretary Carson. Warlords are not here, but these----
    Mr. West. Yeah, so that is another that we added to the 
mix.
    Secretary Chollet. Sir, very briefly, the goal of our 
efforts, the Defense Department's efforts, are to help build up 
the Congolese military and to make them capable of taking care 
of these problems.
    Mr. West. So that is foreign internal defense.
    Secretary Chollet. Internal defense.
    And the footprint issue, which you have quite rightly 
raised, is extremely limited. Right now, we have three 
personnel who are part of the MONUSCO mission. We have secunded 
to the U.N. mission to help them on information-sharing as well 
as some intelligence issues. When we had the training effort 
under way for the 391st, for this battalion, it was about 60 
folks, special forces and others, to help train them up, but 
they are now out.
    So it is a very limited footprint. We are one of many 
players, including the British and the French, the Belgians, 
the South Africans, and the U.N., importantly. About 17,000 
U.N. troops in the Congo.
    Mr. West. But my concern would be--and I will close on 
this--all of these different non-state, non-uniformed 
belligerents, you know, coming together against our efforts. Is 
that a potential to happen there?
    Secretary Carson. No.
    And I would like to just underscore what Mr. Chollet has 
said. We are not talking about American soldiers on the ground 
engaged against rebel groups in the DRC. That is not something 
that is in our game plan or in our thinking.
    What we need to be focused on----
    Mr. West. But we said that in Vietnam and Somalia and other 
places.
    But my time is gone. I yield back.
    Secretary Carson. Train, enable, build capacity. Build 
capacity, enable, and train.
    The Chairman. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    The continent of Africa, gentlemen, is the richest in the 
world in terms of minerals and natural resources. This 
continent of Africa is the source of 90 percent of the precious 
minerals, gemstones, and strategic raw materials used by the 
industrialized nations of the world. But yet the people on the 
continent of Africa are the poorest of the poor. And I am 
pretty sure I would get no disagreement from either one of you 
on that point.
    Another point I would like to make is that, over the recent 
centuries, dictators and corrupt leaders of failed African 
states have cut deals with multinationals from the developed 
world. These deals generally pay meager royalties for the raw 
materials that are extracted from the land. Part of the money 
goes into the Swiss bank accounts of the corrupt leaders, and 
the money never trickles down to the development within the 
country.
    And it is the multinationals that export the raw materials 
out of Africa to places where they can be developed. And in 
that development process, it means the people who live in the 
places where the goods are being refined are able to get jobs, 
and then they are able to have some prosperity throughout the 
land. But that does not take place in Africa.
    Then you have the issue of the debt that is extended or 
moneys that are extended to these African countries for 
development and then the debt is unpaid and unforgiven, which 
permanently locks in poverty. Because the resources that are 
available that are not going into the Swiss bank accounts have 
to go to be paid--have to go to repay the debt.
    And then in the DRC we have the same kind of abject 
poverty, hunger, starvation, disease, and lack of basic social 
services. And despite the fact that--and I will quote from our 
memo. It says, ``Economic growth, buoyed by high global 
commodity prices, has been strong in recent years,'' speaking 
of the DRC, ``reaching an estimated 6.9 percent in 2011.'' And 
DRC also receives high levels of donor aid, with over $5.96 
billion being disbursed in 2010.
    What I would like to know is, what part does the economic 
exploitation of Africa and its natural resources play in the 
support of these forces that are throughout the DRC? You 
mentioned the Mai-Mai Cheka, the M23, the FRPI, and others. 
What impact does the quest for the natural resources of Africa 
have to play on the support of those groups?
    Secretary Carson. Let me say, thank you very much for the 
question. There is no question that conflict minerals 
contribute to sustaining conflicts in Africa. Groups are able 
to take control of mineral-rich areas and then to smuggle those 
minerals out through neighboring states into the international 
market. And so it does play a role in sustaining these kinds of 
conflicts.
    And this is why legislation passed here by Congress has 
been useful in putting a check and a control over what U.S. 
companies can buy in places like the Democratic Republic of the 
Congo.
    The Chairman. Mr. Secretary, the gentleman's time has 
expired. If you could finish that for the record, please.
    [The information referred to can be found in the Appendix 
on page 138.]
    The Chairman. Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    Could one of you all tell me how much the United States of 
America is spending on Congo efforts now, both military and 
non-military aid?
    Secretary Chollet. I think, sir, the total cost in the 
last--from fiscal year 2009 to 2013, I believe, is about $137 
million in the security sector, both--that is military--from 
State and Defense.
    Secretary Carson. The total assistance package to the 
Democratic Republic of the Congo is running approximately $480 
million. And that is the total package that includes both the 
military and the economic and humanitarian assistance that we 
provide to the country.
    Mr. Brooks. Does the United States----
    Secretary Carson. Yes, a year, $485 million.
    Mr. Brooks. Does the United States of America have a 
national security interest in Congo? And, if so, what is it?
    Secretary Carson. We do have interests there.
    Mr. Brooks. A national security interest?
    Secretary Carson. We have interests in helping to do as 
much as we can to maintain stability that can, in effect, have 
a direct impact on the United States. The largest single U.N. 
peacekeeping program in the world is in the Democratic Republic 
of the Congo. We spend and appropriate some 25 to 26 percent of 
what is authorized by the U.N. for this program. It consumes an 
enormous amount of time in New York at the Security Council, 
and we have to respond to humanitarian crises in the region----
    Mr. Brooks. Okay. Mr. Carson, I apologize for cutting you 
off, but we have limited time and I have some things that I 
wanted to cover.
    It sounds like to me you are talking about a humanitarian 
interest as opposed to a national security interest. Something 
that threatens the survival of the United States of America is 
my definition of a national security interest.
    And it also seems to me, and I may be wrong in my 
interpretation of your remarks, but the interest that you have 
just described would mean that the United States of America has 
a national security interest in every place in the world, the 
way you have defined ``interest.'' And I noticed you focused on 
the word ``interest'' as opposed to ``national security 
interest'' in your answer to me.
    I have reservations about the United States of America 
continuing to be the world's police cop.
    And, Mr. Chairman, we all know the impact of President 
Obama's sequestration policy that Congress, unfortunately, 
approved in August of 2011, with the adverse effect on our 
uniformed personnel being numbers less than or equal to that of 
immediately before World War II, number of naval vessels being 
reduced or cut to naval operational size of World War I era, 
and then the Air Force having the smallest number of 
operational aircraft in the history of the United States Air 
Force.
    And so that is what we are looking at because of President 
Obama's sequestration policy, again, that Congress approved. So 
it is everybody here in Washington that is involved in this 
attack on our national defense capabilities from a financial 
perspective. The United States of America has limited funding.
    And, Mr. Chairman, that all being the case, to the extent 
that you and this committee have significant influence over 
where that money goes, I would strongly urge us to use that 
$480 million being spent on the Congo, according to Mr. 
Carson's testimony, instead being used to help people in the 
United States of America who are in need of help or to help 
reduce the deficit that Admiral Mike Mullen testified from 
these very same chairs is the national greatest--excuse me, is 
the greatest national security threat to the United States of 
America. So it is a matter of priorities.
    I would emphasize that I appreciate the very noble--and I 
emphasize the word ``noble''--effort to try to help people who 
are in harm's way in various parts of the world. And my 
colleague from Florida mentioned Somalia and Mogadishu. 
Certainly, in Vietnam we tried to do the noble thing. But we 
are in a different financial reality. And in the absence of a 
compelling national security interest in the Congo and various 
other parts of the world, I am afraid that sequestration is 
going to force us to retract, even though we may otherwise wish 
to the contrary.
    So, with that, Mr. Chairman, I yield back the remainder of 
my time.
    The Chairman. Thank you.
    Mr. Garamendi.
    Mr. Garamendi. A couple of questions.
    First of all, if I recall correctly, sequestration is not 
only Obama's but it is also our responsibility. I believe we 
all voted for it. Let's keep that in mind.
    Mr. Brooks. I did not vote for it. But I can't speak for 
others.
    Mr. Garamendi. I don't believe I yielded to you.
    We have talked here about this whole issue. Mr. Frazer, who 
will be on the next panel, suggests that there is perhaps less 
than $30 million of that $480 million that is actually for the 
military issues. Is that about correct? Is that basically the 
number?
    Secretary Carson. 480----
    Mr. Garamendi. $480 million, but about $30 million of that 
is directly related to the military issues here in the eastern 
Congo. Is that more or less correct?
    Secretary Chollet. I am afraid I would have to get back to 
you on the specific number, but that sounds about----
    Mr. Garamendi. Well, that is his testimony. We will hear 
that in a few moments.
    If that is correct, I would point out that this really is a 
national security issue for America because the destabilization 
of Africa provides the direct opportunity for Al Qaeda and 
related terrorist organizations to find safe havens.
    Is that the situation in Africa today?
    Secretary Chollet. I could speak first to this.
    It is certainly throughout the continent that is a concern. 
In this particular region that we are focused on this morning, 
we have not seen that concern yet.
    Mr. Garamendi. Beyond this region.
    Secretary Chollet. Beyond this region, absolutely, that 
there is a concern in North Africa----
    Mr. Garamendi. All right. So let's make it clear that 
Africa is a national security issue for the United States. Is 
that correct?
    Secretary Carson. There is absolutely no question that 
where we have----
    Mr. Garamendi. Thank you.
    Secretary Carson [continuing]. Seen prolonged instability--
--
    Mr. Garamendi. Just yes or no. I want to deal with the 
previous questioner.
    The other issue is that we are currently, today or 
tomorrow, going to vote for an $88 billion appropriation out of 
the National Defense Authorization Act for Afghanistan. That 
must assume the full contingent of American troops in 
Afghanistan for the entire year 2013 budget. And given the 
amount of money that is presently available to deal with the 
military situations in Africa, this committee might consider 
how we allocate American resources. I will put that on the 
table for the next NDAA [National Defense Authorization Act].
    My next set of questions deals with the issue of, in your 
testimony, Ambassador Carson, you wrote that the underlying 
issues of illegal exploitation of natural resources is one of 
the major problems in this region, and I believe in other 
testimony and answers you have said throughout Africa. Is that 
the case?
    Secretary Carson. Yes.
    Mr. Garamendi. Would you consider the ivory trade to be an 
exploitation of natural resources of Africa?
    Secretary Carson. Absolutely.
    Mr. Garamendi. Okay. Do you have any indication, any 
evidence that the ivory trade is supporting the M23 and related 
rebel organizations in the Congo?
    Secretary Carson. I don't know, but I could find out what 
we have on that and get back to you.
    Mr. Garamendi. I will share with you that the international 
environmental and wildlife community believe the answer is yes.
    What resources are we presently putting into the effort to 
understand the illegal ivory trade and its connection to not 
only the Congo situation but other destabilizing forces in 
Africa?
    Secretary Carson. Thank you.
    Approximately 1 month ago, Secretary Clinton hosted at the 
Department of State a meeting between major African countries 
that have large wildlife populations and also a large number of 
countries in Asia that are believed to be the purchasers and 
recipients of illegal ivory. It was an effort to indicate our 
great concern.
    We are putting more money into trying to beef up anti-
poaching operations across Africa and also trying very much to 
get the demand reduced in Asia.
    Mr. Garamendi. Excuse me. On the military side of it, what 
is the DOD doing?
    Secretary Chollet. I am not aware of anything on that. I 
will have to get back to you.
    Mr. Garamendi. You should be aware. My final 27 seconds. 
You should be aware. In fact, it is, by all evidence presented 
at an ad hoc hearing here in Congress just less than 3 weeks 
ago, a major element in the destabilization and in the support 
of various rebel groups, many of whom are clearly aligned with 
Al Qaeda. I would appreciate a detailed response from the 
military about exactly what the African unit is doing.
    Thank you.
    Secretary Chollet. You will have that, sir. Thanks.
    The Chairman. Gentleman's time has expired.
    Mr. Hunter.
    Mr. Hunter. Thanks, Mr. Chairman.
    I have specific questions.
    One, have you worked with the guys that have been training 
our troops in Afghanistan? When you talk about the Congolese 
military as unmotivated, illiterate, undisciplined, corrupt, a 
mobile banking system, all the stuff that we--those exact same 
words have been used to describe the Afghan military and the 
Afghan forces. I would hope there is crossover. All the lessons 
learned and the billions of dollars spent in Afghanistan over 
the last decade, the people that have been doing that there 
transferring their knowledge and capability to you and, 
frankly, anybody else in your situation where you are training 
those types of troops and in the advise and assist role.
    So is there a crossover?
    Secretary Chollet. Absolutely. We have learned a lot of 
lessons over the years in Afghanistan in terms of training 
indigenous forces. And that is being applied across our 
military wherever we are performing these kinds of activities.
    Mr. Hunter. Specifically, people from Afghanistan, though, 
and lessons learned, tactics, techniques, and procedures from 
Afghanistan, putting in place specific procedures?
    Secretary Chollet. As I said, there is--obviously, general 
doctrine has been influenced. I will have to get back to you 
whether the specific individuals who performed training in 
Afghanistan are perhaps some of those--the 60-some folks that 
helped train this Congolese battalion that I mentioned earlier.
    Mr. Hunter. Right.
    And the second question is specifically on the ISR. You 
talked about ISR. Mr. Scott mentioned JSTARS. Do you have any 
of the lower-flying ISR systems right now or platforms? You 
don't, right?
    Secretary Chollet. In this region?
    Mr. Hunter. Yes.
    Secretary Chollet. No.
    Mr. Hunter. And the money that has been authorized, I think 
$50 million I was just told, for ISR for the front end and the 
back end, what region is that going to? In this bill----
    Secretary Chollet. I think that that is the counter-LRA 
mission.
    Mr. Hunter. So that is not specifically the mission that 
you are talking about right now today?
    Secretary Chollet. It is not eastern Congo, no, sir.
    Mr. Hunter. Okay.
    Then--well, my question is, then, how is that going to help 
you?
    Secretary Chollet. So it is a separate mission, the 
counter-LRA mission, which is in a part of Congo but not the 
specific issue that we are talking about in terms of the 
instability in the eastern Congo. But it certainly is related. 
It is what we are working with the Ugandan military on and to 
try to strengthen their efforts to go after the LRA.
    Mr. Hunter. Well, I mean, are you going to be able to use 
that money to set up systems that can be used in both places? 
Do you have the flexibility to use it in both places?
    Secretary Chollet. I think it is--we are planning to use 
that against the C-LRA mission. In terms of using it for 
another mission, I don't--that is not in our plans right now.
    Mr. Hunter. And my last specific question on the ISR--and I 
don't know, there is not a military person up here that could 
probably answer this better. Are you expecting any capability 
gaps in the ISR that we have been using in the Middle East and 
southwest Asia? I mean, because it is totally different 
country, obviously. You talked about triple-canopy jungle 
versus desert and mountainous regions.
    And I am curious to see, once this goes into effect, if we 
notice capability gaps because we haven't been looking at ISR 
in that aspect. Can it see through triple-canopy jungle? Does 
it work in that kind of an environment? Because we may learn 
that it doesn't, right?
    Secretary Chollet. Sir, you are absolutely right. The 
terrain there presents specific challenges and unique 
challenges in terms of our ISR. I can get back to you a more 
detailed answer on the capability and how the money that we are 
asking for to spend on ISR on the C-LRA mission will go to the 
systems that will enable us to really use it.
    Mr. Hunter. I would hope that you would capture that for us 
and maybe give it to us because a lot of--there is probably not 
a whole lot of people looking at how the platforms we have now 
and the weapons systems we have now work in that type of an 
environment because we haven't had to be in that kind of an 
environment. But who knows what tomorrow brings.
    So I would hope that you could capture that, put down some 
requirements, so we at least have people looking at, if we are 
not in a desert or just mountainous region, if we are in that 
triple-canopy jungle, does the stuff that we have, does it 
actually work.
    Secretary Chollet. Well, we will definitely follow up with 
you on that.
    Mr. Hunter. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    Can I have an estimate from each of you as to how many 
rapes occur in the DRC a year?
    Secretary Carson. I will get back to you on the precise 
number. It is extraordinary. It is probably a higher level than 
anyplace else in Africa and certainly maybe the highest in the 
world.
    We do have an estimate, but I would like to give you a 
precise answer. Some have described it as the--as the rape 
capital of the world. The number is extraordinary. I have a 
number in my mind, but I don't want to----
    Ms. Speier. Well, it is easily hundreds of thousands.
    Secretary Carson. Yes. The number is extraordinarily high.
    Ms. Speier. So the rapes are taking place by 
representatives of M23 and the DRC; is that safe to say?
    Secretary Carson. Yes. It is taking place by all the rebel 
groups, and the FARDC has also participated in these illegal 
activities, as well.
    Ms. Speier. So an article in The New York Times by Jeffrey 
Gettleman referenced the ``rape capital of the world'' comment. 
And he asked the question, ``What strategic purpose is there of 
putting an AK-47 assault rifle inside a woman and pulling the 
trigger or cutting out a woman's fetus and making her friends 
eat it? The government's response has been a shrug.''
    Now, that is diabolical. And yet we are funding on a yearly 
basis $480 million into this country that allows this kind of 
horrendous abuse to go on. And it appears we do it with full 
knowledge of the extent of these rapes, and we are not holding 
them accountable. It is like giving an addict more dope. How do 
we justify it?
    Secretary Chollet. Ma'am, if I could start, the funding 
that the Defense Department is providing is for the training 
and the education and the--that would instill the discipline to 
prevent this very kind of horrific behavior. Because it is 
absolutely unacceptable. And so the funding we have supported 
is for specific programming, for training and mentoring to make 
sure that we can prevent this from happening from the Congolese 
military.
    Now, the rebel groups, that is another problem. But with 
the Congolese military, we fully understand there is a huge 
capacity problem there, that there is outrageous and 
unacceptable behavior happening by members of that military, 
and that is why our program is specifically aimed to ensure 
that that doesn't happen.
    We have seen, in the modest programs that we have 
conducted, some success along those lines----
    Ms. Speier. All right, I would like to have a list of the 
programs that you have funded and the, quote, ``modest 
success'' that you have defined.
    Secretary Chollet. Absolutely. Absolutely.
    Ms. Speier. Mr. Carson.
    Secretary Carson. Let me say that we agree with you about 
how horrendous and horrible this is. And it has been a 
continuing priority of the Administration at all levels, 
including from the Secretary, to address this issue and to 
bring it to the leadership of the DRC Government. Starting from 
the very beginning of this Administration, we have pressed very 
hard that there be no impunity for anyone, including Government 
officials and soldiers.
    In early 2009, Secretary Clinton traveled to Goma in the 
eastern Congo to see President Kabila, and this was one of the 
major subjects on her mind. At that meeting, she demanded and 
asked for the arrest of five senior DRC officers whose troops 
had been engaged in the rape of women. They were called the 
``FARDC Five.'' We have been----
    Ms. Speier. My time is running out. Could you tell me 
what----
    Secretary Carson. We have been aggressive on this, and we 
continue to be aggressive on it. It is not an issue that we 
have tried to hide. As I said, it is horrendous. It is the rape 
capital of the world. Jeffrey Gettleman----
    Ms. Speier. Actually, Mr. Carson, let me just ask a 
specific question. The Secretary asked for these individuals to 
be incarcerated or removed. What has happened since her request 
was made?
    Secretary Carson. Three of them have been arrested. Two of 
them have fled----
    The Chairman. The gentlelady's time has expired. If you 
could answer that for her on the record, please.
    [The information referred to can be found in the Appendix 
on page 138.]
    The Chairman. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being with us.
    I have just one question of our military witness there. I 
would be very interested to follow up with respect to what Mr. 
Hunter asked about with respect to lessons learned out of 
Afghanistan and training up the military and police or whatever 
it is that we are doing that, and the real specifics to that. 
So if you could provide that for the record, I would appreciate 
it.
    [The information referred to can be found in the Appendix 
on page 137.]
    Ms. Sanchez. And the rest of my questions are for our 
Department of State Secretary there.
    My question to you is about all the other programs, because 
it seems to me like the majority of the money is going in 
through the mission that we have there into other arenas. Some 
of the paperwork says, you know, trying to put in a justice 
system and local police, et cetera, et cetera.
    I am interested, because I also sit on Homeland Security, 
Mr. Secretary, about border security. Because if M23 is being--
if we are seeing Rwandan-backed troops coming across to aid or 
be part of M23 and then going back across, what, if any, of the 
programs that we are putting in between the countries?
    Because it seems to me like this is a bad neighborhood. I 
have been in some of these areas, the Horn of Africa and coming 
toward--not specific to the Congo; I haven't been to the Congo. 
But in most every other area around there, I have been there.
    And so my question would be border security and are we 
training up there. And what type--you know, give me a--paint a 
picture for me of what that looks like, if it can be easily 
traversed, if we are doing anything about it, if we are putting 
unmanned aerial to take a look at what is going on.
    Secretary Carson. Border security in the region is almost 
nonexistent. There is very little security along the borders. 
People move back and forth. They are not clearly delineated for 
the populations who live in the regions. These are forested 
areas in which----
    Ms. Sanchez. Are they mountainous?
    Secretary Carson. They are indeed. Some areas are very 
mountainous.
    Ms. Sanchez. I am trying to look at this topography map to 
try to figure out what is going on here.
    Secretary Carson. Yeah. No, they are. There are active 
volcanos right in and around Goma and both in the North and 
South Kivus. So people----
    Ms. Sanchez. Is there some idea of maybe putting some 
effort toward that? Or is it just so porous that no matter 
where we would go--are we in passes? I mean, how do you do 
that?
    Secretary Carson. It is an enormous challenge because of 
the enormous size of the--of the country. This is a country 
that shares borders with nine other countries--nine other 
countries. As I said, geographically, it is as large as the 
eastern part of the United States and certainly as large as all 
of western Europe by a multiple.
    Ms. Sanchez. And it seems to me it shares some waterway 
borders, too.
    Secretary Carson. It shares a--yes. The Congo River divides 
the Democratic Republic of the Congo from the Republic of the 
Congo, known as Congo-Brazzaville. And there are lakes that 
divide the country between its eastern neighbors and the Congo.
    Ms. Sanchez. I would be interested, as Ms. Speier had asked 
for a delineation of the moneys, aside from military, that we 
are putting in there. And, you know, with a big question as to, 
why aren't we helping them with border security? I mean, that 
is one of the main things that we have found in Iraq that we 
needed to put in in order to ensure that, you know, the bad 
guys weren't going from one country into the other and then 
slipping across. And, of course, it is one of the biggest 
problems that we have with the mountainous regions of 
Afghanistan and Pakistan.
    So, you know, some--some comment to this committee, 
specifically to me, about any ideas about how we handle some of 
that.
    Secretary Carson. Absolutely.
    Ms. Sanchez. Thank you.
    Secretary Carson. Will do.
    [The information referred to can be found in the Appendix 
on page 137.]
    Ms. Sanchez. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Bass.
    Ms. Bass. First of all, let me thank the chair and ranking 
member for letting me sit in on today's hearing. I just have a 
couple of brief questions.
    Ambassador Carson, you were responding to Congressmember 
Speier, and I wanted to know if you could finish. You were 
talking about the five commanders that the Secretary asked to 
be arrested.
    Secretary Carson. Yes. And I will get back to you and give 
you a status report on exactly what has happened to them. I 
know that this was back in 2009. We tracked these individuals 
for a period of time. Several were arrested; several of them 
fled. But I will get back and give you a status report on that.
    But beyond that, I would go to some of the things that my 
colleague, Mr. Chollet, has said. We have put a lot of effort 
in trying to get the Congolese to address the human rights 
problems within their own government and within the military. 
We have strengthened the capacity of the military judicial 
system. We have called for no impunity. We have trained judges. 
We have increased the number of military--female military 
police offers and police.
    Ms. Bass. Thank you.
    Let me ask a couple other questions.
    You mentioned the other rebel groups. I think you said 
there were about 10. And when we had the hearing last week in 
the Africa Subcommittee, I don't remember that coming up, the 
other groups outside of the M23.
    But I wanted to know if you could talk about what their 
numbers are and who is supplying them. And if they are anti-
DRC, are they collaborating with M23? You know, what is their 
basis for their----
    Secretary Carson. I can give you a listing of these 
organizations with a very, very rough approximation of their--
the numbers. And I will pass that on to you.
    There certainly are at least a dozen. Many of these groups 
have no affiliation with the M23. They are groups that are both 
self-protecting of ethnic communities and regions, and they are 
groups that are both protecting communities and exploiting 
communities and their natural resources.
    Ms. Bass. Are they more like gangs? And who is supplying 
them? Are they supplied through the----
    Secretary Carson. They are self-sustaining because they are 
marauding groups that live in communities and exploit those 
communities. And they may be exploiting minerals, as well. They 
are protecting and doing things that the Government would do if 
it were capable of doing.
    Ms. Bass. Right. Okay. Thank you.
    The Chairman. That concludes our questions for Dr. Chollet 
and Dr. Carson. We want to thank you.
    And the committee will adjourn for a few minutes while we 
change the panels.
    Thank you very much.
    [Recess.]
    The Chairman. The committee will come to order.
    I don't know why, but the media seems to be quite 
interested in this hearing.
    Our second panel is comprised of Dr. Jendayi Frazer, 
distinguished service professor, Carnegie Mellon University; 
Dr. James Carafano, vice president, foreign and defense policy 
studies, and director of the Kathryn and Shelby Cullom Davis 
Institute for International Studies from The Heritage 
Foundation; and Mr. Ben Affleck, founder of the Eastern Congo 
Initiative, and a few other things.
    We are happy to have you here. And we will follow in that 
order.
    Dr. Frazer, please.

   STATEMENT OF DR. JENDAYI E. FRAZER, PH.D., DISTINGUISHED 
         SERVICE PROFESSOR, CARNEGIE MELLON UNIVERSITY

    Dr. Frazer. Chairman McKeon, Ranking Member Smith, and 
Members of the committee, thank you for the invitation to 
testify on the evolving security situation in the Democratic 
Republic of the Congo and its implications for U.S. national 
security.
    I will keep my remarks to 5 minutes or so and ask that you 
place my full written testimony in the record.
    The Chairman. Without objection, so ordered. Five minutes 
will be fine.
    Dr. Frazer. Thank you.
    Giving your time and your attention at this critical moment 
is a welcome sign of U.S. leadership that is essential for 
reinforcing regional efforts to achieve sustainable peace.
    My analysis of the current crisis in eastern Congo is based 
on my shuttling between Kinshasa and Kigali since the M23 
rebellion started in April. I have met and spoken repeatedly 
with Presidents Kabila and Kagame and senior ministers and 
officials in both governments. I have been an informal listener 
who knows the background, has built trust with the leaders, and 
is known to only be on the side of peace.
    I mention this context because I believe the dialogue on 
how to resolve the Congo crisis has become unhelpful and 
polarizing, driven by sensational but shallow news reporting. 
It has dissolved into emotional grandstanding and official 
finger-pointing. Without a foundation in U.S. strategic 
interests and objectives, our policy risks becoming rudderless 
and driven by narrow and vested interests.
    So what are U.S. interests in the Democratic Republic of 
the Congo? I believe the United States' primary interest in DRC 
should be to support local and regional efforts to, first, 
achieve national peace and regional stability; second, advance 
good governance and national integration and reconciliation; 
and, third, create the enabling environment for the development 
that benefits all Congolese.
    Congo's strategic location at the very center of Africa, 
bordering nine countries, means that instability in the Congo 
touches all of Africa to the north, south, east, and west. 
Moreover, the country of 70 million people was endowed with 
vast human and natural resources, great forest and mineral 
wealth, and enormous hydropower, making it a strategic country 
in the global effort to address food security, climate change, 
and generate clean and alternative sources of energy.
    Yet, despite its vast potential, 71 percent of the 
population lives below the poverty line, and many Congolese 
live in fear of marauding domestic armed groups, including the 
M23 rebels, and foreign negative forces that are on the U.S. 
terrorist exclusion list, namely the Democratic Forces for the 
Liberation of Rwanda, FDLR; the Ugandan Allied Democratic 
Forces, ADF; and the Lord's Resistance Army. Tackling these 
negative forces is a necessary condition to achieve sustainable 
peace in DR Congo and regional stability in the Great Lakes 
region.
    In addressing the evolving situation--security situation, 
an urgent priority has to be resolving the current crisis of 
the March 23rd Movement, M23, but doing so with an 
understanding that it is a symptom, while the root causes of 
insecurity in the Congo and region have to do with governance, 
institution-building, national integration, and porous borders.
    As background, M23's precursor, the armed CNDP, signed a 
peace treaty with the Democratic Republic of the Congo 
Government on 23rd March 2009 that established CNDP as a 
political party. And many of its soldiers and officers were 
integrated into the country's armed forces, the FARDC. The CNDP 
units within FARDC were viewed as both capable and highly 
motivated to take on FDLR.
    Two points are relevant from this background. The CNDP 
units saw their mission more locally and against FDLR. That is 
where they were fundamentally focused. And secondly, the DRC 
and Rwandan Governments were closely aligned from 2009 until 
this past April in their common efforts to eliminate negative 
forces from eastern Congo.
    This spring, three largely concurrent developments led to 
M23's rebellion. First, the soldiers were dissatisfied with 
conditions in the army, particularly not receiving their pay 
and provisions, so they mutinied. Second, the international 
community's relentless pressure--relentlessly pressured 
President Kabila to arrest their ICC [International Criminal 
Court]-indicted leader, General Bosco Ntaganda, and he led M23 
into mutiny. And, third, the Government made clear its plans to 
mainstream and redeploy former CNDP soldiers out of the Kivus. 
And M23 claims, of course, that they were not protected, so 
they mutinied.
    The main point is that the current crisis is fundamentally 
a mutiny within FARDC, so coming out of deeper challenges of 
governance and regional security. Also, whereas in 2008 Rwanda 
demonstrated its ability to influence CNDP's actions when it 
prevented them from taking Goma, when we fast-forward to 2012 
the past constructive cooperation between Kabila and Kagame has 
been severely undercut by the U.N. Group of Experts' 
accusations of Rwandan and Ugandan support for M23.
    So what are the key recommendations for U.S. national 
security policy? My bottom-line three recommendations are: 
reinvigorate diplomacy, support regional mediation, back the 
proposed Neutral International Force. A whole-of-government 
effort is required for the United States to assist the Congo 
and the region to establish the conditions for sustainable 
peace and stability.
    First and foremost, Presidential leadership is needed. 
Advocacy to a point of Presidential envoy for the Great Lakes 
region will only achieve its intended purpose if the President 
is engaged. Envoys gain their clout from perceptions that they 
really have the ear of a President that cares. A call every few 
years won't work. The sustained Presidential leadership of 
Bush, Rice, and Powell helped in the Congo war in 2003 and set 
the conditions for reasonably peaceful regional relations until 
they deteriorated this year.
    Second, backing regional mediation is the surest path to a 
sustainable peace. Here I commend the Howard G. Buffett 
Foundation's recent announcement of an initiative to support 
the peace talks mediated by the Ugandan Government under the 
auspices of the International Conference for the Great Lakes 
Region. It is a beacon that should be followed by the U.S. 
Government and advocacy groups.
    The USG [U.S. Government] can also play a positive 
diplomatic role in the mediation by helping set the agenda and 
keep it focused on military grievances to prevent M23 from 
opening a wider and prolonged political dialogue that is better 
held in the DR Congo, where the broad civic participation is 
possible.
    Third, sustained, robust, and imaginative diplomatic 
engagement is essential. Peace-building requires establishing 
processes that can build confidence between protagonists and 
communities as milestones are achieved. It is much more 
effective than sanctions that simply drive a wedge between the 
essential actors capable of ending the M23 rebellion, will 
freeze the conflict, and undermines U.S. efforts to engage all 
sides.
    Fourth, to support confidence and peace-building efforts 
within Congolese communities, the State Department should 
consider properly securing and reopening Goma House to extend 
our diplomatic reach beyond Kinshasa.
    Beyond diplomacy, the U.S. national security policy--beyond 
diplomacy for U.S. national security policy, I would suggest 
four more initiatives on the military side.
    First, maintain the International Military Education and 
Training program and funding for demobilization, disarmament, 
reintegration, military justice; second, train a second 
battalion to augment the major military reform effort the USG 
has undertaken by training the 391st light infantry battalion; 
third, if asked, the USG should consider providing planners, 
logistics, and possibly equipment to support a neutral 
international force to monitor borders between Congo, Rwanda, 
and Uganda and to act as a strike force against all negative 
armed groups.
    USG can also use technology to offset some of the--to some 
degree, the number of peacekeeping personnel needed by offering 
contract advisers with unmanned aerial vehicles to monitor the 
border areas, watching for unlawful rebel crossings and illicit 
activities.
    And, finally, there needs to be consideration of how to 
improve the peacekeeping MONUSCO's poor record of protecting 
civilians. Some in the Administration are considering an option 
to bring the neutral international force under MONUSCO's troop 
ceiling levels. Sierra Leone is a model that could be 
replicated. In that case, Pakistani forces joined the UNAMSIL 
[United Nations Mission in Sierra Leone] peacekeeping operation 
under a U.N. mandate but with a distinct mission to move the 
Revolutionary United Front rebels off the diamond mines in 
Sierra Leone.
    However, the neutral international force should not become 
part of a peacekeeping mission where the mandate is confused, 
the rules of engagement are varyingly interpreted and 
communicated by U.N. headquarters in New York, the special rep 
to the Secretary General in Kinshasa, and the force commander 
in the east.
    Dr. Frazer. In conclusion, the U.S. Government, and we in 
civil society, must act with humility, recognizing that the 
governments and people of the regions themselves are ultimately 
responsible. We can only assist them to establish the inclusive 
governance, the robust regional security mechanisms that are 
the foundations for eliminating all armed negative forces in 
creating the conditions for empowered citizens and economic 
prosperity.
    Thank you very much, Chairman.
    [The prepared statement of Dr. Frazer can be found in the 
Appendix on page 79.]
    The Chairman. Thank you.
    Dr. Carafano.

 STATEMENT OF DR. JAMES JAY CARAFANO, VICE PRESIDENT, FOREIGN 
      AND DEFENSE POLICY STUDIES, THE HERITAGE FOUNDATION

    Dr. Carafano. Thank you, sir. I want to start by saying, I 
believe the United States does have an interest in promoting 
peace, prosperity, and freedoms among the nations of Africa and 
that I believe the U.S. can play a constructive role in the 
DRC, albeit limited. And from a security standpoint, we want a 
stable Central Africa, so that we can focus on our real 
national security concerns in the region, which are a growing 
global Islamist insurgency and transnational terrorist threat 
out of North Africa.
    So I think where we start is we start by acknowledging 
where we are. And that is that the status quo is, and I think 
everybody agrees that there is no status quo, that things are 
getting worse. And you know, one witness stated last week in 
the Foreign Affairs hearings, the Congo is too big to fail. 
Well, I would submit, in the eastern Congo, we are failing.
    So I make three recommendations in my prepared statement. 
And the first one is, stop doing what isn't working. The U.N. 
peacekeepers in the Congo have been a failure. Our efforts to 
reform the Congolese army have been a failure, and we should 
stop throwing a lot of good effort at the bat. I spent 25 years 
in the military. I am hard pressed to find a security force 
less competent and less equal to the task at hand.
    So my second recommendation is that we really seriously 
think about the United States getting behind moving through a 
different model. Some people call this the Somalia model, but I 
do think that the alternative credible option is something like 
like-minded African nations banding together, working to 
provide security in this situation. And I think it may be 
controversial; I think, at the end of the day, Uganda and 
Rwanda have to be a part of that. They can't be the lead, 
because, obviously, they are not objective, and they have to 
play by the rules. But I think if they--if we construct a 
situation where they see that it is in their interest to 
cooperate and work in that direction, that that is a force that 
could credibly bring some peace to the east Congo.
    So the third is, and what I principally want to talk about 
today is, what is the U.S. military role. And I think the U.S. 
military role is for the United States military in Africa under 
AFRICOM to continue to do the things that it does very well, 
which is limited but important capacity-building efforts. And 
the thing is, you build capacity, where you can; not where you 
want. So you have to work with countries that you can actually 
credibly do the capacity building. So some of these programs, 
such as IMET [International Military Education and Training 
program], the individual military education training program, 
they are very low cost and they have very, very high impact. 
For many years, I was affiliated with the National Defense 
University, the Fellows Program in the College of International 
Security Affairs. These are amazing programs. You know, I would 
meet--work with these guys one on one, and it wasn't about 
Americans lecturing to them because they were with fellows from 
countries all over the world facing very similar situations 
learning from each other. Everyone I ever worked with was 
incredibly dedicated. They were smart, and they left wanting to 
go back to their country and make a difference. And the ones 
that I have kept in contact, over the years, they have made a 
difference.
    So I think these programs are enormously important. They 
have to be very well integrated with the rest of what the 
interagency community is doing on the other fronts. They have 
to be better integrated with other individual efforts, such as 
things being done like by the USIP [United States Institute of 
Peace] and some of their initiatives, and what some NGOs [Non-
Governmental Organizations] and things can do. One of my 
favorites is Spirit of America. They are not currently active 
in the Congo, but Spirit of America is a terrific NGO that 
works with U.S. military on the ground, helping build capacity 
for what they need.
    My biggest concern that I think that this committee should 
focus on is, keeping AFRICOM doing the right things; is that a 
sustainable effort over the long-term? And I have significant 
concerns there, when you look at the global responsibilities 
that the United States has to protect its interest and you look 
at the long-term plans to provide for that, I think they are 
simply inadequate. One of the first things that will fall off 
the table, and this is somebody that lived through this in the 
1990s, when we almost went hollow then, is the small low-cost 
efforts that have very big pay off, because they keep brush 
fires from becoming forest fires, are often the first thing to 
cut, to go.
    And my two, I think, most important recommendations for the 
committee are: Number one, I really think you need an 
independent review of the next Quadrennial Defense Review to 
really get a cold, clear-eyed assessment if we are really 
providing the resources that our military needs to do all of 
these missions from the big important vital national security 
missions to these helpful tasks that prevent a future national 
security crisis. And the second is, I would recommend to the 
committee that you need a better way of really understanding 
the readiness of some of these low-end things, these assistance 
missions which are so important and helpful and very low cost--
and if they are done correctly and they have the right mission 
sets, they don't just lead to mission creep--that those things 
aren't falling off the table. So I think this committee needs 
some way the Department of Defense can give them a better 
assessment of the readiness to do these mission and then the 
long-term viability of these missions. Because the Congo, 
regardless of the most brilliant solution that anybody on this 
panel comes up with today, this is not a problem that is going 
to go away in 5 minutes.
    Thank you so much for the opportunity to speak today.
    [The prepared statement of Dr. Carafano can be found in the 
Appendix on page 88.]
    The Chairman. Thank you.
    Mr. Affleck.

  STATEMENT OF BEN AFFLECK, FOUNDER, EASTERN CONGO INITIATIVE

    Mr. Affleck. Chairman McKeon, Congressman Smith, 
distinguished Members of the Armed Services Committee, on 
behalf of the Eastern Congo Initiative, I want to first thank 
you for holding this hearing and devoting your time and 
attention to the ongoing crisis in the Democratic Republic of 
the Congo.
    My name is Ben Affleck. I am the founder of the Eastern 
Congo Initiative. We are the only U.S.-based grantmaking and 
advocacy organization entirely focused on working with, and for 
the people of eastern Congo, a region that has the unwanted 
distinction of being one of the most volatile in the world and 
the site of the deadliest conflict since World War II.
    From the outset, let me say that I am not here to ask for 
American tax dollars. I am here today to respectfully request 
that you use the most important power you have, your collective 
voice as Representatives of the United States of America.
    From 1998 to 2003, eight African nations fought on 
Congolese soil, causing the deaths of millions, forcing tens of 
thousands of children to become child soldiers and, in some 
areas of Congo, subjecting as many as two of every three women 
to rape and other forms of sexual violence.
    The United Nations estimates that as many as 900,000 
Congolese have been newly displaced in the North Kivu Province 
since fighting reignited earlier this year. As you know, just a 
few weeks ago in Goma, the economic center and capital of North 
Kivu Province was temporarily controlled by the newly formed 
M23 militia and injuring hundreds, displacing tens of 
thousands.
    M23 is just the latest in the long list of armed groups who 
have destabilized the Congo since 1994. With the latest 
violence, the world is reminded that the systemic sources of 
instability in this region have yet to be addressed.
    Still, on the face of this violence and suffering, the 
people of eastern Congo remain committed to helping their 
neighbors and rebuilding their communities. ECI [Eastern Congo 
Initiative] staff and our partners have continued to work 
throughout the crisis, not only providing humanitarian 
assistance but continuing important development activities 
focused on a brighter future.
    When heavy shelling began last month near our office in 
Goma, the surgeons, doctors, and nurses of ECI's partner, HEAL 
Africa, rushed to the hospital, anticipating increased numbers 
of wounded in what is already an overcrowded hospital. Many of 
these same caregivers were still at the hospital 5 days later, 
providing free treatment to numerous civilians wounded in the 
conflict.
    Another ECI partner, Mutaani FM, continued to broadcast 
news throughout the crisis. Mutaani, the only independent radio 
station in Goma, is located across the street from the 
Congolese army headquarters, which was seized and occupied by 
M23 during the height of the conflict.
    Despite the odds, these brave journalists, all young adults 
in their 20s, stayed on the airways, either reporting from the 
front lines or locked safely inside the radio station, 
reporting on the fighting as it spread across the region.
    Every day I am inspired by the resilience and the 
determination of the Congolese, who desperately want to live 
their lives in peace, earn a decent living, and raise their 
families just like the rest of us.
    Mr. Chairman, they deserve better than the cycle of 
violence and upheaval that continues to undermine their daily 
work of rebuilding this war-torn community.
    While the M23 has withdrawn from Goma, they have not 
disbanded. In fact, as of this morning, our team on the ground 
tells us they are just 4 miles away from the city center, and 
there are fears that they may attack Goma again. We have seen 
this cycle repeat itself too many times: Violence flares up, 
and the international community turns its attention for a 
moment to this part of the world. Violence recedes, and the 
world turns away in relief, without addressing the systemic 
issues that must be dealt with in order for lasting peace to be 
established and maintained.
    Since my very first visit to Congo in 2006, it is clear to 
me that the pursuit of durable peace in Congo is not hopeless; 
quite the contrary, in fact. The solutions are not new, nor are 
they particularly complex. But without persistent high 
leadership by the United States, the key players will not come 
to the table and will not do their part.
    First, let's set aside the notion that the recent talks in 
Kampala will end this cycle of violence. Last week's 
negotiations were not even attended by the region's key 
players. It is for this reason that ECI has called on the U.N. 
Secretary General to appoint a special envoy under the joint 
auspices of the U.N. and the African Union to bring all 
stakeholders together to craft real, implementable solutions. 
We are delighted that Assistant Secretary Johnnie Carson 
announced the State Department's support for this idea in his 
recent testimony.
    For 15 years, the United Nations has run a peacekeeping 
mission in Congo. The time has come to fundamentally reconsider 
its mandate. As M23 moved into Goma, the 17,000 troops deployed 
across DRC that make up the United Nations stabilization 
mission, known as MONUSCO, did not protect civilians in harm's 
way. This failure raises serious concerns. That said, the 
larger failure most certainly lies with the DRC's own security 
forces' continued inability to protect their citizens.
    With focused U.S. leadership, the U.N. mandate should 
reflect the needs of the country, and the DRC security sector 
must be reformed. Last week we were delighted that the U.N. 
Secretary General launched a review of MONUSCO's mission. We 
hope that the United States will take the lead in the Security 
Council, supporting significant changes to MONUSCO's mandate. 
At a minimum, the mandate must be strengthened to enable 
whatever force remains to actually keep the peace and protect 
the people.
    We also believe the U.N.'s mandate in Congo should not be 
indefinite. An open-ended mandate undermines the urgency for 
the Congolese Government to take responsibility for protecting 
their own citizens.
    Looking beyond the United Nations, donor countries have 
enormous leverage in the region which they should exert to 
bring key regional players together for serious negotiations. 
International donors can play a more active role in preventing 
violence from returning.
    And of course, Congo's neighbors play a critical role in 
regional security. There will be no lasting stability without 
their leadership.
    The United Nations has been presented with evidence that 
M23 is sustained by significant outside support from Rwanda and 
Uganda. If these accusations are true, any support must end. 
Congo's neighbors have legitimate security concerns and their 
national economies greatly benefit from DRC's natural 
resources. We hope the President of Rwanda and Uganda will 
engage in serious discussions about the many issues that affect 
regional stability.
    The Obama administration can and should leverage its unique 
relationship with these leaders to insist they pursue 
resolutions directly with the Government in Congo, rather than 
indirectly through the support of armed militias.
    It is not enough for the M23 to withdraw from Goma. Until 
the militia is disbanded, the people of the eastern Congo will 
live with a daily threat of violence. To be clear, eliminating 
M23 alone will not restore peace. Just the last time I was in 
Congo in February, there were at least 27 armed groups 
operating in the eastern provinces.
    The regional aspect of this conflict include failures in 
Kinshasa. Since the last ceasefire in 2006, too little has 
changed inside Congo. Kinshasa must take seriously its lack of 
legitimacy in many parts of Congo and act now to address the 
grievances of its people.
    When Goma fell to M23, there were spontaneous riots in 
Bukavu, Kisangani, and Kinshasa, aimed not only at militia 
violence but also at the failure of President Kabila's 
government to protect its citizens. To restore legitimacy, the 
Independent National Electoral Commission should immediately 
set a date for and begin to organize the provincial elections 
that were supposed to take place in March of this year. The 
electoral commission itself has been seen by opposition parties 
and international election observers as an obstacle to 
political legitimacy. It must be reformed.
    President Kabila must also commit to the overdue reform of 
Congo's security sector. This is critical. Without competent 
military and law enforcement institutions, Congo's territory 
will continue to provide safe haven to armed groups who prey on 
civilians and disrupt economic development.
    In April of this year, ECI helped lead an effort alongside 
nearly 300 Congolese civil society organizations to publish a 
comprehensive support about the need for security sector reform 
in Congo. This report, which I ask to be submitted for the 
record, calls for an end to the conflict through a 
comprehensive reform of security institutions, which include 
the military, law enforcement, such as police and the courts.
    [The information referred to can be found in the Appendix 
on page 113.]
    Mr. Affleck. President Kabila has expressed an interest in 
SSR [Security Sector Reform], but it has not been a priority of 
his administration. It must become a priority now, and the U.S. 
has an important role to play in assuring that this happens.
    Mr. Chairman, I realize we are laying out a very broad 
agenda, but we know that none of this, not the revised MONUSCO 
mandate, the increased donor involvement, the responsible 
behavior of DRC's neighbors, or internal DRC reforms, will 
happen without direct, high-level, focused U.S. leadership. 
President Obama and many of you have unique leverage with key 
international and regional stakeholders, and the United States 
is held in very high regard by the Congolese people. Your 
leadership can make a difference if we act so decisively, and 
do so today.
    This is why ECI has called on the President to appoint a 
temporary special envoy to signal clearly that finding a 
lasting solution to the crisis in Central Africa is a priority 
for his Administration.
    Past models for this approach, including Senator John Kerry 
to Sudan, the late veteran diplomat Richard Holbrooke on the 
Balkans, or General Colin Powell to Haiti, demonstrates that 
high-level diplomatic intervention at the right moment can cut 
through deadly impasses and open the way toward peace and 
lasting stability.
    At the United Nations, the new Presidential envoy should 
work with the Secretary General to establish a timetable for 
regional negotiations, revise MONUSCO's mandate, and draw up a 
strategy for reinstating a ceasefire in case violence flares up 
again.
    Internationally, the U.S. should encourage our NATO [North 
Atlantic Treaty Organization] allies and other key partners to 
provide police, judicial and military training so that the 
Congolese government can increase its capacity to protect its 
own people as MONUSCO's mandate winds down.
    U.S. Africa Command's, AFRICOM's, work with the Congolese 
army has demonstrated that a little training could have a big 
impact. During the most recent crisis, ECI staff in Goma got a 
car stuck in a ditch. It happens a lot, unfortunately. A truck 
full of Congolese soldiers pulled up and offered to help, and 
to be honest, our staff wasn't sure what to expect. In the 
past, this kind of help would most likely have been accompanied 
by a request for a bribe. In this case, the soldiers brought 
the car out of the ditch and simply waved goodbye. It turns 
out, they were part of the unit that AFRICOM trained in 2010.
    The successful AFRICOM training mission is only the latest 
example in the 52 years since Congo's independence of the close 
U.S.-Congolese ties. As a major donor of humanitarian and other 
assistance our country has much more influence in Kinshasa than 
we have been willing to exert.
    The President's envoy should engage directly with President 
Kabila to accept assistance in developing a strategy for 
implementing comprehensive security sector reform. With an 
agreed-upon deadline in place for announcing the SSR strategy, 
the U.S. should step in to provide Congo with whatever 
technical support it needs in partnership with the EU [European 
Union], NATO, and others to complete planning.
    AFRICOM--I am rushing to try to get through the 5 minutes, 
which I think I passed about 15 minutes ago--AFRICOM's plan to 
train a second unit of the FARDC should be put on hold until 
provincial elections are organized and President Kabila 
produces and commits to a workable plan for implementing 
comprehensive security sector reform. But once that commitment 
is clear, Congo will need and deserves international support to 
ensure that reform takes hold.
    Mr. Chairman, I know that Congress and the Armed Services 
Committee in particular hear more urgent requests for U.S. 
leadership in the world than can be answered. Resolving the 
cycle of violence does not necessarily require significant new 
financial investment by the United States or U.S. boots on the 
ground. It does, however, require American political 
leadership, moral leadership even, to bring the parties 
together to address the larger sources of instability in the 
region.
    I may be naive, but I believe that our actions in foreign 
policy represent our values as a country. They represent who we 
are as a people. Soon, I will be making my tenth trip to Congo, 
and I know that if your constituents were to go to Congo and 
see what is happening there, they, too, would insist that we do 
something about it.
    I founded ECI in part to serve as a megaphone to amplify 
the voices of the people of eastern Congo, and I thank you very 
much for the opportunity to do that today. In fact, it is an 
honor. Even in the face of violence and upheaval, the Congolese 
remain resilient and entirely determined to rebuild their 
country. The 70 million Congolese deserve a better tomorrow, 
and they haven't given up trying to build a better future.
    With support from Congress and leadership from the 
President, the United States can help them get there. We can 
help, and we should. Thank you very much. I look forward to 
your questions.
    [The prepared statement of Mr. Affleck can be found in the 
Appendix on page 99.]
    The Chairman. Thank you.
    You brought up a point that always bothers me about these 
hearings. We bring in experts, give them 5 minutes to tell us 
everything they know about it, and then we are supposed to 
absorb all of that and make policy.
    I would prefer sitting around the coffee table and 
discussing it to get really to the point of the matter. But it 
is what it is, and we will deal with it.
    You all are very familiar with the situation. I, frankly, 
knew nothing about the Congo, other than what I have learned 
here today. It is not an area of the world that we have focused 
on. We have a war in Afghanistan. We just completed a war in 
Iraq. We are looking at other very serious threats around the 
world, and that is kind of where my focus has been, so I really 
thank Adam for bringing this to our attention, and for 
encouraging us to hold this hearing, because I think it has 
been a real eye-opener to me.
    I was in a meeting the other day when it was brought up by 
a Member about the seriousness of Syria, and in a year, we have 
lost, had 40,000 people killed there. And that is something 
that the whole world is focused on. And yet, I come here today 
and learn that we have lost 5 million people in the Congo, and 
I didn't know about it until right now.
    It is amazing what we know and what we don't know. Having 
said that and having listened to this testimony and 
understanding that we are spending $480 million, roughly, a 
year in this area--you have all been there, you understand it--
is that, are we spending it the way we should?
    If you were a king for a day, or queen, what would you--say 
we are able to keep spending that money. We have sequestration 
that is hitting us. We are cutting a trillion dollars out of 
defense over the next 10 years if all of this goes through. You 
already heard the stories of how much we are cutting back our 
military and our ability to carry out our missions, but 
assuming we could keep spending that same money there, what 
would you do with that money, each of you?
    Mr. Affleck. First of all, I am not sure sequestration is 
going to hit. We have to plan for success, I think, and my 
answers will reflect the assumption that that is--that doesn't 
take place.
    There are a number of things I would do, you know, if I 
could wave a magic wand. But speaking in practical terms, you 
know, the mandate needs to be completely reexamined. Even if 
you talk to people within the United Nations, they talk about 
MONUSCO being a failure. You go to Congo and you talk to 
Congolese civilians, and they have got an anger and a 
resentment toward, you know, people from the United Nations 
that you can't believe. They are spending a billion [dollars] 
plus total down there trying to help people, and they deeply 
resent it. And the reason they deeply resent it is because 
their mandate is to protect civilians, but when trouble breaks 
out, they are hiding in barracks, or they are avoiding these 
confrontations, or they are allowing militias like M23, which 
is the size of half a battalion in the United States military, 
to run roughshod and take over the city.
    So civilians are not being protected. The mandate is deeply 
flawed.
    Leadership probably needs to be reexamined. I think that I 
would, in a very broad sense, look at making sure that we are 
protecting civilians and making sure that we are using the 
leverage that we have through MONUSCO--as you say, we are 
spending over $400 million, you know, a year--that we get our 
money's worth for the American taxpayer, that we need to ask 
for better. It is a noble and valiant mission. It is a place 
where people are suffering, and we can do better.
    And one of the ways that we can do better is to try to 
expand upon some of the training that they are doing there, 
trying to address this issue of soldiers getting paid, which is 
one of the real problems down there, is that nobody gets paid. 
Their salary is $40 a month, and they are not even getting 
that. And there is a culture handed down since Mobutu that 
says, you know, well, don't worry about getting paid; you are 
really going to live off the population. And that is what has 
given rise to the FARDC being responsible for more than 40 
percent of the gender-based violence in that country.
    As you can see, it is quite a web, but I think, you know, 
we have a lot of levers for sure at the U.N., and we ought to 
be examining those right away.
    Dr. Frazer. Thank you, Chairman.
    I think the first thing to do is to get the policy or the 
diplomatic framework correct. And by that I mean that, without 
spending any money, really, if the Administration would put in 
place the type of bilateral commissions in which they can then 
focus the Congolese government's attention on security sector 
reform and raise the priority and the attention of the 
Congolese government, that would go very far, without really 
costing anything more than plane tickets.
    So that is the first thing, is really focus on the 
diplomatic framework in which this relationship is happening. 
Right now, it is extremely weak. It was much stronger during 
the last Administration through mechanisms that were put in 
place, like the Tripartite Plus process and joint planning 
cells.
    Secondly, I think that Ben is exactly right; the MONUSCO 
mandate is problematic, but we strengthened it over many, many 
years. We are spending $1.5 billion. That mission costs $1.5 
billion. I mean, it is not, obviously, having the effect that 
we want. I would really focus on training both the Congolese 
battalion that we talked about, but this international neutral 
force, which is really African forces, and we have done this 
before. We are doing it successfully in the AMISOM [African 
Union Mission in Somalia], which is mainly Uganda and Burundi, 
who have really stabilized Mogadishu and are playing a very 
positive role in Somalia. We did it very effectively in 
Liberia, when we first had African forces on the ground, and 
then they transitioned to blue helmets. In this case, we have a 
blue helmet force already, but I would say that if we can train 
up and work with regional forces, and the Southern African 
development community, namely South Africa, Tanzania, and maybe 
Angola, have said they would put forces. So plan with them, 
work with them, and they may not need equipment, and they may 
not even need movement because they actually have that capacity 
within their army. But the planning side, work very closely 
with them, bring them in as maybe part of MONUSCO's mandate; 
maybe not. I think that is for the Administration to work out, 
but get a real strike force that could have some real 
capability on the ground.
    And African forces are increasingly showing both the 
responsibility as well as the capacity to do this type of 
mission. And this is a planning mission. This is not U.S. 
boots, you know, getting into offensive operations. So that 
would be the second.
    Thirdly, I would say that really we are not spending very 
much on the type of issues, as my colleague here said, on the 
IMET, the International Military Education Training. We are 
spending less than half a million dollars, about $450,000, 
which is in military justice, on human rights training, and 
other types of professionalization and changing the ethos of 
the Congolese army. I think that, you know, $500,000 really is 
not going to hurt anybody. Those numbers are actually 
decreasing. We probably should sustain that level, if not 
increase it slightly. But I don't want to ask for money in a 
certain environment, but certainly, we shouldn't be decreasing 
or we really need to put a focus on that type of 
professionalization and training of the Congolese army. Thank 
you.
    Dr. Carafano. I will be very quick. I think we all agree, 
we could have different solutions, but we all agree that the 
security force that is there now is not adequate. So we are not 
getting the return on investment. I think that is very clear, 
and I would put that as number one.
    I certainly think spending a lot more money is not going to 
make a lot of difference. This is the largest country in 
Africa. It is the 19th largest country in the world, [19th] 
most populous country in the world. But we can get much, much 
more efficiency for what we have.
    So the one area where I might differ a little, is this 
notion of kind of, I think, top-down reform, particularly in 
the security sector, I am just not very optimistic about that 
at all. I do think the key has to really be empowering at the 
provincial level. So I think the provincial level is very 
important, but I, honestly, I mean, you know, we can build all 
the battalions that we want. In a country of this size, you 
know, we have got to have capacity at the local level, and I 
think we have to go from a top-down approach to a bottom-up 
approach.
    The Chairman. Thank you very much.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Dr. Carafano, your opening remarks said a couple of things 
that are very near and dear to my heart, talking to the Somalia 
model and how this is really sort of, you know, building 
capacity of local partners, and it is a light footprint 
approach that can yield huge results. I think that is the 
direction that our foreign policy needs to go in, is 
partnership between DOD, State, and also we do need to really 
improve on the development and economic piece as well, so that 
we are not spending a lot of money and we are not putting, you 
know, U.S. lives at risk. Both, that saves us money, and it is 
also, as you just said in your last remarks, it is much more 
effective. You build the local capacity. We can't simply show 
up and say, we are here, we are going to fix your problems. 
That doesn't work. It has got to be capacity building. It has 
got to be locally driven.
    And I think Somalia is an excellent model. We worked with 
Ethiopia, Uganda, Burundi, and Kenya, and, you know, we have 
had success, by Somalia measures at any rate, based on their 
efforts in that country, in a very light footprint. And the 
partnership there has also helped us in Yemen. You look at what 
we invested in Iraq and Afghanistan versus what we invested in 
the Horn of Africa problem and what resulted, and you see the 
wisdom of this approach. And I definitely think that we need to 
move that that direction, and I think the DRC is a very 
important place to do that. It has to be locally driven.
    That said, I want to explore a little bit on the training 
of the battalion issue. That kind of is locally driven. You 
know, light footprint, we train their military to get better at 
security, and it seems to me that none of this is going to 
happen unless we figure out how to do it.
    I think the U.S. has to play a role. So, two questions 
about that. Do you think it makes sense to look for 
opportunities to train more battalions, use that light 
footprint to build the DRC capacity? And then, second, the 
thing that would be really helpful, but it is really tough in 
the eastern Congo, is to get the support from those countries I 
just mentioned, who gave us support in Somalia and also Angola 
to play a role in this, too. There is a lot of painful history 
with all of those countries in the eastern Congo. Do you think 
we can overcome that and that those countries can be a useful 
part of, sort of, you know, sort of flopping that Horn of 
Africa model over onto the eastern DRC? How do we build that 
vision?
    Dr. Carafano. Let me answer the second part of that 
question first. I am a strategist, so for a strategist, the 
right answer is the right answer, right. There is no such thing 
as a universal model that works everywhere.
    Mr. Smith. Absolutely.
    Dr. Carafano. On the other hand, I would say that this 
region is prime for something that looks like the Somalia 
model, recognizing all of the difficulties involved. The payoff 
here I think is enormous, and I think it is the quintessential 
piece.
    To go back to the first question, I am just very skeptical 
about security sector reform in a country that is thoroughly 
corrupt, where the government is widely perceived as 
illegitimate, and where you don't have the infrastructure, and 
you have this enormous army. So these little tiny battalions, I 
am sure are wonderful little models, but it is the 19th most 
populous country in the world. And the eastern Congo is a huge 
region.
    So I think if you want to get something in there and then 
stabilize that, the Somalia model a very worthy and important 
first step that stems the bleeding.
    And then I think this, as in the DRC, I mean unless we--you 
are not going to see this dramatic reform from the top down at 
any time in the near future. You really have to look at models 
in the countryside, at the provincial level, empowering 
provisional officials to look after this.
    Now, you can find bad examples of these things. If you 
don't do it right, you can have war lordism, right, and the 
country can devolve into civil war. If you are just throwing 
money and weapons at people----
    Mr. Smith. I think we----
    Dr. Carafano. Right. So the key is actually something 
really you mentioned, and something where the United States has 
learned an awful lot of very good lessons, and that is to look 
at these things in a more holistic way, to do the kind of 
security development and economic development and civil society 
development. You know, there is no perfect model for this. 
Again, side by side, in tandem, keep these things in mind, and 
they do provide enduring solutions.
    Mr. Smith. But, actually, I think we have resources that 
can do that.
    And, Mr. Affleck, I wanted to ask, if you could sort of put 
a positive piece on this, because I know in working with the 
Eastern Congo Initiative before, there are a lot of positive 
things going on in the eastern DRC, in terms of economic 
groups, in terms of groups. I was over there, visited with HEAL 
Africa, a group I know you support, trying to combat the 
institutionalized rape that happens there. There is economic 
development happening, which I know you guys have been focused 
on. Again, somebody can paint the picture and go, this is 
hopeless, nothing can be done there, but that is really not the 
case. Talk a little bit about some of the positive stuff that 
is going on, even now, in the DRC.
    Mr. Affleck. Sure. You know, at ECI, we really see the 
country through the prism of the people that we meet on the 
ground. And I agree with you that, you know, there necessarily 
needs to be an effort from the ground up to reform some of 
these larger institutions.
    I also believe that the top-down reform is necessary, as 
well.
    But when I think about Congo, when I look at Congo, I don't 
think about well, you know, all of the dead and all of the 
sexual, the gender-based violence, all of the terrible things 
you hear; one in five children die before the age of 5 years 
old. That misery, that suffering, is real. Just as real is a 
tremendous and indomitable spirit that you see from Congolese 
people, that we see with so many of our grantees, who are 
teaching, who are building capacity with former child soldiers 
to help them find work in the economy, for people who are 
struggling mightily and oftentimes in the face of literal 
warfare to keep their country together, and not just keep their 
country together but to build their country. And so I have to 
reject on a very basic level this sort of pervasive notion of 
hopelessness that exists.
    It becomes sort of fashionable to say, like in a larger 
sense, the continent of Africa, oh, well, you know, hopeless, 
corrupt, problematic, can't fix it. You know, not true. Not 
true in Africa. Not true in Congo. Not true in eastern Congo, 
because it is seeing advancements.
    And I do believe that there is, you know, necessarily a 
kind of incrementalism that has to be part of one's approach 
that, yes, these battalions are rather small, and right now, 
they are just emblematic of what could happen, but it can in 
fact happen because I have seen other similar progress take 
place. And I have seen it engineered, conceived, and driven by 
people who live there, you know, which makes sense if you think 
about it. The people who are best equipped to rebuild their 
neighborhood are the people who live there. And so when I think 
about that, and when I think about the hopefulness that I have 
seen, then I do believe that it is possible to, for example, 
where with funding through the Panzi Hospital in South Kivu, 
women's organizations for, sort of, to pursue legal solutions 
to having been raped. We see that some of the police force can, 
in fact, be improved, and we take these signs, albeit, you 
know, small measurements, and we assume that if it can be done 
in this minor way, it can be done on a larger scope. Will it be 
easy? No. Is it, you know, are they simple solutions? No. But I 
know for a fact, from having been on the ground, from having 
seen the people there who have a tremendous desire to work, and 
many of whom who are educated, many of whom who understand and 
reject the corruption in their own country. It is not a 
pervasive thing where all Congolese are corrupt. You know, as 
you all know, we fostered and supported a corrupt guy named 
Mubutu during the Cold War because he was, for national 
security reasons, and that inculcated a culture of corruption 
within the sort of official government level.
    But people in that country don't want that. They reject it. 
And if people show up and say, let us partner with you in 
trying to rid your country of this, I think you will find that 
the people of Congo will be extremely receptive and not just 
willing but active partners.
    Mr. Smith. All right. Thank you very much. It is one of 
the, you know, most rich countries in minerals and resources. 
There is a lot of potential there for a very positive 
relationship with the U.S., you know.
    Beyond just the terrorism concerns that can arise from 
instability, there is an economic opportunity there that I 
think we should work to try and seize. Thank you.
    I yield back, Mr. Chairman.
    Mr. Coffman. [Presiding] Thank you, Mr. Smith.
    Mr. Affleck, Dr. Frazer, Mr. Carafano, I think you all 
raised one central issue, and that is the lack of security 
among the population. So, right now, we are relying upon the 
Congolese government to provide that security. In Afghanistan, 
we have had a questionable partner in the Karzai government, 
and that has been difficult. And we have a less than credible 
partner, I think, in the Congolese government. In Afghanistan, 
we have gone to these village stabilization operations to 
provide--as an alternative way to provide security at the local 
level within villages, within communities, whereby we have been 
providing some arms and some training to the local population 
there, so that they can provide their own security. Obviously, 
the Karzai government is opposed, has been opposed to that.
    Are there any opportunities for any alternative strategies, 
given the nature of the Congolese government in the DRC?
    Mr. Affleck.
    Mr. Affleck. Well, I will, you know, in a second just yield 
to expert fellow panelists here, but you know, one of the 
things that I think, the basic issue, and a really simple issue 
and one that would go a long way and I alluded to earlier, is 
that, you know, applying some influence to President Kabila so 
that payment is made to his troops. I think that, if there is 
one fell swoop, one stroke that would dramatically improve 
people's lives off the bat, you know, that would be it. And 
that would do a sort of--that would take a wholesale step 
toward improving the security sector.
    You know, but as we talk about security sector, as if it is 
this kind of mammoth thing, and on one level, it is, but on 
another level, if you had paid soldiers who had any incentive 
to fight, for example, you wouldn't have a major capital 
overrun and taken over by 1,200 guys. I mean, that is half the 
size of the kids at my high school. That shows you the degree 
to which the Federal Government, in effect, is unable to exert 
control, even the smallest amount of control in the east. And I 
think that that issue is--goes hand in glove with security 
sector reform, and then I will----
    Mr. Coffman. Dr. Frazer, and then Mr. Carafano.
    Dr. Frazer. I will be very brief. This, actually, working 
in training in local communities for self-protection was 
actually done in Rwanda against the FDLR.
    I am not so sure about doing this in Congo. It is 
attractive to me, but I guess I would say, depends on the 
community. And I also would say that I think that the key here, 
again, is really to engage and embrace the Congolese government 
at the most senior level, but not just at the presidential 
level, but even at the ministerial level, which is why I keep 
talking about some type of binational commission, because then 
I think you can start penetrating those ministries, which have 
the responsibility, even bring governors over, so that you can, 
you know, deal at the provincial level.
    But I guess I think that the real heavy lift here is more 
on the diplomatic side and working very, very carefully with 
the Congolese government, which is essentially isolated and 
doesn't have very much contact, frankly, with our officials at 
this point in time.
    Mr. Coffman. Mr. Carafano.
    Dr. Carafano. So I remember about an army that wasn't paid, 
and the Government reneged on all its promises. And when the 
American Revolution ended, the Continental Army went home. That 
says an awful lot about the nature and the character of the 
society, and I think that we will all agree that if you have a 
security solution that doesn't fit with the situation on the 
ground and the people on the ground, it is simply not going to 
work.
    I am sorry, I am very skeptical that the Government in 
Kinshasa is ever going to be a force for good in resolving 
this. But, on the other hand, I totally agree with Mr. Affleck 
and Dr. Frazer. This is a country of great people, and if we 
can enable them to take control of their own lives, I think we 
will see constructive--that is why I am much more optimistic 
about solutions at the provincial level.
    Mr. Coffman. Mr. West from Florida.
    Mr. West. Thank you, Mr. Chairman.
    And thanks to the panel for being here. And I want to try 
to a draw on, you know, what I saw my year in Iraq and 2\1/2\ 
years in Afghanistan. I see this kind of, how do you put 
together a train? And too often what we do, we put a caboose 
before the engine, and then we have the train wreck and come 
back and say, why did it happen? Because we never figure out 
what comes first, the secure environment, or does the 
legitimate governance, or does the individual, the military 
education and training?
    So what I would like to ask you all, knowing what is the 
situation on the ground with Congo--and I do agree that you 
have to start at the provincial and the district level. I mean, 
we kind of learned that lesson late in Afghanistan, because, I 
mean, that is the basis of that culture. Which is the right 
model to go with here?
    Because, Mr. Affleck, you talked about 27 different militia 
type of groups, so even if you try to have the governance 
corrected, if the militia groups are still running around, they 
continue to delegitimize the efforts that you are doing with 
the Government, which is exactly what we saw in Afghanistan 
when we tried to focus on Kabul, and Kabul doesn't extend out 
beyond the city limits. So as we build this train in the Congo, 
which would you all recommend to come first in order for us to 
be on the track to success?
    Dr. Carafano. You know, I would just start that, you know, 
if you get the international security assistance piece right, 
and you had European--I mean, excuse me, African nations, 
including Uganda and Rwanda, participating, then I think that 
gives you some breathing space to move on. So, to me, that is 
the essential thing that has got to happen first.
    Dr. Frazer. I guess I would say that, one, I take--I 
understand the premise, but I believe you can do both at the 
same time. I think you have to deal with governance, but 
obviously, creating greater security for the----
    Mr. West. Governance at which level?
    Dr. Frazer. At all levels, but you cannot, I don't think, 
frankly, do real governance at the provincial level with 
governors, unless you are dealing with the capital, because of 
the nature of the Congolese government and how it works.
    That said, I think that you start where you are, and you 
have MONUSCO. You have this force that is of no real 
effectiveness. Try to bring in units or create a new unit 
within it that has that capacity. And so I guess I would say 
that you definitely need--I guess I would put my, if I were 
forced to make a choice, I would--and I was dealing at the 
provincial level, the only force that is out there right now is 
MONUSCO. So I would try to bring into MONUSCO units that are 
actually capable.
    What I would say is that it is ironic for me to hear the 
Somali model presented as a success because that is something 
that has taken years to get to the point where it is, and it is 
going to be the same thing in Congo. And we never said, well, 
we can't deal with the transitional federal government at the 
same time that we are dealing with AMISOM. We had to do them 
together, recognizing that it was going to take a long time. 
There were going to be casualties on the ground, and we were 
going to learn as we went. I mean, I think that it is really 
getting in there and working, without putting our forces at 
real risk, that is going to be necessary.
    And so I--and also I would just say, add to that is, I have 
actually worked with the national government, and it is not as 
hopeless as is being presented here either. It obviously needs 
a lot of work, but you deal with who you are dealing with.
    Mr. West. Okay.
    Mr. Affleck. I did not have the honor to serve in the in 
our Armed Forces, and I did not have the opportunity to go to 
Afghanistan and Iraq, so I am speaking from secondhand 
experience. But the sense that I get was that the United States 
Government and United States Armed Forces successfully trained 
troops in Afghanistan and in Iraq, both under circumstances 
where, very much unlike DRC, where they were doing so under 
hostile circumstances, folks who were sometimes--and some folks 
who turned out to be hostile to the United States, and there 
was a situation of violence, and lives were lost.
    What that tells me is that it is doable. It is a doable 
thing because the United States has done it. Not perfectly, you 
know, but it was done. Now, I am not suggesting that we spend 
the kind of money that that took, but I am pointing to that, in 
a much more difficult situation, this goal was achieved. Now, I 
don't think it should be the United States that steps in and 
reforms the 100,000-plus FARDC military. I do think that it is 
a job for multinational forces. I think it is a good idea. It 
may be a good job for NATO. It is the step, I believe, that 
will go the furthest the quickest in changing the quality of 
life for people and eliminating the 27 armed groups that you 
talk about--are going to find it much more difficult to operate 
when they feel as though there is a force present that they are 
not equal to. And all of a sudden people aren't going to want 
to take Goma and people aren't going to believe that they can 
achieve political goals through violent means because there is 
an active state security force that prevents that kind of thing 
from happening, so as happens in developed countries when 
people turn to the ballot box. I can't speak to the exact model 
of how that would work because I am not qualified to. But I can 
speak to the fact that it is possible.
    Mr. West. Thank you, Mr. Chairman. I yield back.
    Mr. Coffman. Thank you, Mr. West.
    Mr. McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman.
    And thanks to all of our witnesses for coming today.
    Mr. Affleck, you mentioned in your testimony about how 
AFRICOM's work with the Congolese army is demonstrating that, 
as you said, a little training can have a big impact, and you 
gave the instant about the car being stuck. ECI, obviously, has 
a great impression of that presence of U.S. Forces, and working 
with AFRICOM and helping in the ways that we haven't been able 
to help. Do you feel like the perception of the U.S. by the 
people themselves, the Congolese, is a positive one for the 
presence we have in training and working with their forces?
    Mr. Affleck. Yeah, I do, for the most part, you know. I 
mean, you have a big country, and it has got, you know, so 
there are a number of different competing opinions about it, 
you know, and it is not unlike the way we are here. However, I 
would say that primarily--I will give you an anecdotal example. 
I was asked to shoot a film for the U.N., and I went into a 
bunch of refugee camps. It was about refugees, and this was 
during the fighting, the early fighting, when the previous 
version of M23, which is called the CNDP, was being led by a 
guy named Laurent Nkunda, and they were making very similar 
advancements on Goma, a lot of instability, a lot of fighting.
    And I was walking around with a camera with my big U.N. 
badge. And I was experiencing a lot of hostility from folks in 
the camp, and I was experiencing, you know, some real 
resentment to the point where I thought maybe it is not wise 
for me to be in here. And so I took off the U.N. badge, and 
then people asked me, where are you from? You know, and I said, 
oh, America, I am American. And then, all of a sudden, among 
people who were really, really suffering at the bottom end of 
the pain ladder that was going on there, I was welcomed, you 
know, and treated quite nicely.
    Now, this is anecdotal. It is one incident, and it could be 
the only place that happened, and I don't use this as an 
opportunity to beat up the U.N., who I do think, despite some 
of its failings, you know, also does do important work, you 
know, infrastructure work in particular in Africa and in the 
Congo in specific, but it did show me that Americans were 
respected and held in some esteem.
    Mr. McIntyre. Thank you. Thank you very much.
    And your efforts to call on the U.S. and the Administration 
for a special envoy, have those calls been received by anyone? 
Have you gotten any response yet from the Administration?
    Mr. Affleck. I have been given the impression that this is 
under review, which is ``government-speak'' that I just 
learned.
    Mr. McIntyre. Okay, right, very good. Fair enough, thank 
you.
    Mr. Chairman, I know we had a little question about the 
order a minute ago. I am going to yield the remainder of my 
time to my colleague, Ms. Sanchez, who I know had some 
questions she wanted to ask.
    Ms. Sanchez. Thank you to my colleague.
    I really want to talk to Mr. Carafano, but I would like 
to--but it relates to something that Mr. Affleck said. He 
thought that we had done a good job with respect to training 
military and police, or both, in Iraq and Afghanistan. And I 
would probably--maybe I am the only one on this committee, but 
I would say that that is a disaster for us, in most cases, a 
lot of the work that we have done.
    When we recruit in Afghanistan and 63-year-old Afghans 
come, I wouldn't hire a 63-year-old for a police or an army 
position here, let alone somebody who is probably coming from a 
country where 63 is really old.
    So we have got all those phantom army people that we have 
in Afghanistan. We have trained supposedly over 350,000, but 
when we really take a count to see who is there, maybe 20 
percent of them are hanging out there.
    And remember, this is a force that we, the American 
taxpayer, are paying for. It is not being paid for by the 
Afghanistan government; it is being paid for by us. Their 
police stations are being paid for by us. So when I look at a 
situation like the Congo, where they can't even pay them $40 a 
month, or what have you, I think there is a real problem.
    So, Doctor, tell me the truth. Do you think that this can 
work, that we are actually going to go in there or somebody is 
going to go in there and train these guys, or some African 
group is going to go in there and train these guys and, you 
know, we are talking about a battalion? I mean, I think Mr. 
Affleck got very lucky that day, but what do you think? And you 
know, usually I am the most optimistic person, but on this 
issue, I just see disaster.
    Dr. Carafano. Well, I mean, they are both good and bad 
lessons from Iraq and Afghanistan. We have learned an awful 
lot. But Afghanistan is a very good example, where at the end 
of the day, we are kind of getting it wrong because we got on 
too quick a path, and we focused on a metric of just getting 
numbers by a certain dates. We are throwing a lot of people out 
there that don't have their requisite skills and training and 
capacity to do the kinds of things we are going to expect them 
to do when we turn things over to them.
    So you draw yourself a little triangle, and you say, what 
is the security situation? What is my goal here? And then how 
much am I willing to spend? And then, on the third point of 
that triangle is, it says, okay, what is a realistic capability 
that I can put on the ground that is going to accomplish my 
goal?
    So it is all a question of, you know, good security is 
security that is good enough, right? So, you know, an 
American--creating an American unit is almost impossible feat. 
I mean, we spent, you know, years and years and years creating 
an NCO [non-commissioned officer] core, training officers, 
sending them to college. So I think it is about, you know, 
about this balance of having the clear-eyed realistic goals for 
the amount of resources that you are willing to commit with and 
what you are going to accomplish.
    So you brought up the point of ISR and border security 
before. Those are good examples of things that are really 
extremely expensive to field and sustain. So ISR is great, and 
the question is like, well, what kind of ISR do you want. And 
my favorite story was, a guy from California told me, he said, 
we were having forest fires, and the DOD guy came in and said, 
here is some satellite imagery we have for you. And the guy 
goes, oh, this is cool. Usually, we use a Cessna, but thanks. I 
mean, so there is a case, you know, where--kind of a not good 
match of resources.
    So maybe the ISR you want isn't necessarily a Global Hawk 
or a Scan Eagle. Maybe it is people on the ground that you can 
trust with a cell phone who are calling and telling you what is 
going on in the countryside. So it really is about this kind of 
realistic planning, and that is honestly, at the end of the 
day, that is the great thing about AFRICOM. If AFRICOM does its 
job right and it does the IMET and it does the training 
exercises and it does the capacity building that they know how 
to do, they are going to provide, they are going to help 
Africans provide realistic solutions.
    Heritage was, I think, the first foundation to make a 
credible argument for establishing AFRICOM. And we made the 
argument not because the United States is going to take over 
Africa, but because we want to facilitate solutions within 
those countries to solve the problems so the United States 
doesn't get drawn in. So if we let AFRICOM do its job, it could 
lead people through these triangles in partnership with the 
other interagency people and the NGOs and create sustainable 
solutions. I really believe that.
    Ms. Sanchez. Thank you, Doctor.
    And Mr. Chairman, thank you for indulging. I am sorry.
    Mr. Affleck. Can I just add one thing? I think I may have--
conjuring up Afghanistan may have been a mistake because it is 
associated with a lot of intense political feelings that folks 
have. And this was an example of a space where there were, you 
know, exponentially more hurdles to constructing a police force 
and a military force than there are in Congo.
    My point simply was that we have done it in the past. Yes, 
we have failed in some ways; yes, in some ways, we have fallen 
short, but we have done it. It is doable, and if it is doable 
in places that are much more difficult to work in and operate 
in than DRC, then it can be done here. It is simply a note of 
optimism rather than an effort to try to sort of----
    Ms. Sanchez. Thank you, Mr. Affleck.
    I didn't mean to--I mean, I was sort of just putting my 
position on this.
    Mr. Affleck. I understand.
    Ms. Sanchez. Because there may be some on this committee, 
maybe a majority, who thinks that we have got the job done in 
Iraq and Afghanistan. I got news for you, America, we don't 
have that job done. And it is going to be very expensive for 
us, and it continues to be very expensive for us, and you know, 
it is a lot of money.
    Mr. Coffman. Mr. Larsen, State of Washington.
    Mr. Larsen. Thank you, Mr. Chairman.
    A couple of issues where there seems to be maybe only 
slight differences among the three folks, and I just want to 
get some elucidation from you all on why you think the way you 
are thinking, and mainly under the purview of the committee, so 
it is mainly defense and training issues, as opposed to other 
issues.
    And it gets to the difference here between Mr. Affleck's 
call to delay, if you will, the training in the second 
battalion until after there is a commitment from the Congolese 
government or commitment to reform, versus Dr. Frazer's 
comments and even Mr. Carafano's comments about, you know, 
focusing on the training. And maybe it is--maybe it is an 
omission that you think that ought to be delayed until there is 
a commitment to security reform, and maybe there is no 
difference at all.
    But if there is a difference, perhaps, Dr. Frazer, you 
could start by commenting, do you think we ought to move 
forward on training a second battalion without a commitment to 
reform, and why is that?
    And then, in interest, obviously, of the different view, 
Mr. Affleck, maybe respond about why you think it is important 
to have that reform in place first before you move forward.
    Dr. Frazer.
    Dr. Frazer. Sure. Thank you for the question.
    Yes, I think we should move forward right away. And I don't 
think that we should delay. I think the delay is an issue about 
trying to leverage the Congolese government to do some other 
things that they probably need to do for sure. But the amount 
of time that it actually takes us to actually do a training 
mission, the lead time that is necessary, the sort of, you 
know, interagency work that is necessary, it could be a very 
long time after the decision is made before we are actually 
doing that training mission. So I don't think that we should 
delay.
    Moreover, I think--I don't think, as a matter of policy, we 
should use this issue of training a battalion that can protect 
civilian lives; we shouldn't hold it up for another issue about 
the nature of the election that has happened and, you know, the 
legitimacy. That is a different question that fundamentally has 
to be decided within Congolese society. And if we had this 
high-level policy engagement that I am talking about, you could 
address that issue of legitimacy in the elections while at the 
same time preparing to protect people by training a battalion.
    Mr. Larsen. Sure.
    Mr. Affleck.
    Mr. Affleck. Yeah, I respect and appreciate Ambassador 
Frazer's position and admire her a great deal for her work in 
Africa.
    I think it is a very, very small distinction, frankly. Part 
of our position revolves around this notion of making sure that 
we are dealing with good partners in good faith. And that is 
really--really the question.
    And, again, it goes to the issue raised by many--many 
Congress men and women here today about, well, how do we know, 
you know, that we are working with good partners? And the idea 
is to take--to try to take equal steps down that road rather 
than just saying, hey, look, we are going to sort of come in 
and do this and the status quo can go on.
    Ambassador Frazer's point is well-taken, that it is a time-
sensitive thing to get people out there to protect civilians. I 
see that as sort of a micro-issue that would kind of be--not in 
principle; I believe it in principle. But what we are asking 
for are the symbols of that. What we are going to get out of 
Kabila and his government before we do this will probably be 
something that would be addressed once we sort of got into the 
weeds of that situation. But both the Ambassador and I, I 
think, agree on that.
    Mr. Larsen. A second issue, and this gets at the envoy 
issue. And Ambassador Carson's testimony from the previous 
panel said that the Administration encourages the U.N. 
Secretary-General to appoint a high-level U.N. special envoy, 
whether they--you know, whether they have done that recently or 
not, but they certainly encourage it.
    Should it be a U.N. envoy, as you all, ECI has said? Or 
should it be an envoy within the United States Government? Is 
that a better fit?
    Dr. Frazer and then Dr.--how about this?
    Mr. Affleck. Go ahead.
    Dr. Carafano. Well, I work at The Heritage Foundation, so I 
am never going to sign up thinking that another U.N. thing is a 
good idea.
    So, you know, I think there is a role for a U.S. 
interlocutor there. I think, you know, you have to bring 
something to the table. So I do think we--we need to get our 
strategy together so we are bringing something to the table 
when we are trying to move this.
    And I think that might be a helpful role if, indeed, we are 
bringing something in the sense of a coherent way to address 
this, other than the concerns which have rightly been raised, 
which is, we get excited when it is in the news, and then when, 
you know, Mr. Affleck goes back to Hollywood, we all ignore it 
again.
    Mr. Larsen. I don't think he lives there.
    Dr. Frazer. Well, if you can have the disclaimer of The 
Heritage, I will disclaim as a former Assistant Secretary who 
never wants a special envoy.
    But, with that said, I have seen them work. Senator 
Danforth's worked extremely well.
    And I really do think it is about tying it with the 
President. So the U.N. has its envoy, the special 
representative of the Secretary-General, that is on the ground 
there. I think if we are going to have a high-level, it should 
be a Presidential U.S. envoy, and they should be able to go 
into the Oval Office and tell the President what they are doing 
and the President gives them guidance about what they should 
do. And then it could be quite constructive.
    Mr. Affleck. Yes, I--Heritage Foundation never offered me a 
membership. I guess it is fitting that I am on the far left of 
the panel.
    But I do--I--I strongly believe, frankly, that we should 
have both. I think there is a role for both. I think there is a 
role for a U.N. envoy. That is quite important, as Ambassador 
Frazer said. There is a role for an envoy for the United 
States.
    And I do believe it should be a very, very high-level 
envoy. Again, I concur with this idea that these envoys are 
only as effective as their ability, or their perceived ability, 
at the very least, to access the President of the United 
States.
    And if we are able to do that, I think you will find that 
that person can make a huge difference just by doing shuttle 
diplomacy and can warm things up and can move policy. So, yeah, 
I would advocate for that.
    Mr. Larsen. All right.
    Thank you, Mr. Chairman. Just quickly, we all have to go 
home somewhere. It is a matter of if we keep thinking about the 
things we are working on when we are there.
    Mr. Coffman. Mr. Johnson of Georgia.
    Mr. Johnson. Thank you, Mr. Chairman.
    The history of the Congo, the Belgian Congo and all of its 
iterations from the, I guess, 1700s up to the mid-20th century, 
characterized by colonialization, European colonialization, 
extracting the raw materials and minerals, taking them 
elsewhere to be developed, leaving the nation impoverished.
    Then during the 1950s and 1960s you have insurgencies that 
seize power from the colonialists. And Mobutu Seko comes to 
power; renames the country Zaire. Gross corruption. His Swiss 
bank accounts were fatter than many industrialists'--$4 
billion. He comes to power. He is corrupt, but he is an 
anticommunist, so he is America's buddy. But when the Soviet 
Union falls, then he ceases to be useful.
    And, meanwhile, Laurent Kabila seizes power. He is--his 
son, Paul Kabila--excuse me--Paul Kagame is a child soldier--
commander of a group of child soldiers participating in that 
movement to get rid of Seko.
    So Laurent gains power. Then he is assassinated within 
hours of the close of the Clinton Administration, back in 2001. 
His son, 30 years old, former child--commander of a child army, 
emerges as the President. And he remains in power up to this 
time.
    Now, his daddy was supported by the Rwandans, the Angolans, 
the Ugandans, the Zimbabweans in his quest for power. And when 
he got to power, he told them all that I am going to be the one 
that controls the natural resources of this country.
    After he is assassinated, his son, what--what attributes do 
any of you all attribute to the son, as far as his leadership 
abilities? Joseph Kabila, who was recently reelected in an 
election in 2011, which many characterized as a rigged 
election. What do we know about the current President?
    And why do we support leaders in Africa who exploit their 
citizens, and the poverty that ensues makes them more 
susceptible to extremist elements like Al Qaeda, talking about 
you will receive 100 virgins when you--when you do the suicide 
attack and whatnot. You know, how--how can we get ourselves out 
of this, America?
    Somebody talk to me, please.
    Dr. Carafano. Can I just say very quickly that, you know, I 
think you are right and I think you raised a key issue. This is 
part of a generation of African leaders that are simply not 
going to move their countries forward. Fundamentally, at the 
end of the day, this is really an issue of economic freedom. 
And until they have the opportunity and these people in these 
countries to create societies in which there is economic 
opportunity and freedom so they can govern their own lives and 
their own use of the resources, we are just going to come back 
here and have hearings over and over again. So I do believe 
that you hit on exactly the right issue. And I hope it is the 
one thing that we all walk away today thinking is very 
important.
    The only other thing I would say is, from my perspective, 
Mr. Affleck is sitting on the far right, but I am okay with 
that. Because I think here today we really----
    Mr. Affleck.--that point of view.
    Dr. Carafano. But we all do agree that the issues that you 
raise really are the things that fundamentally are--addressing 
those are really the fundamental future of these African 
countries.
    Dr. Frazer. You asked a question about the character of 
Joseph Kabila and what we do know about him. I have actually 
worked with him. I first met him in 2001, in January, when he 
came to meet with Secretary Powell. And they sat in the--in the 
Secretary's office, soldier-to-soldier and statesman-to-
statesman.
    And Joseph Kabila laid out a vision about what he wanted 
for his government. And that was a vision of democratic 
governance, about peace with his neighbors, and economic 
development for his population.
    Mr. Johnson. What country put Joseph Kabila into----
    Dr. Frazer. I would probably say the entire international 
community, for the very reasons of the history that you just 
laid out, brought him to his position. Which is, it is a long 
and complicated and dirty history that we have all participated 
in.
    The point is is that Joseph Kabila is often underestimated. 
He is shy in nature. He has--he does--he is visionary. He is 
leading a huge and complicated country. And into a second term, 
it may show some weariness of leadership that often comes with 
trying to move such a big country forward.
    I think that there is much more that is needed from him. I 
think he is capable of delivering it. And that is why I think 
that the U.S. Government needs to work with him. He is isolated 
internationally today, and it doesn't help. He is who he is, 
and he is where he is. And our interests are to try to push him 
to deliver on that initial vision that he set out with 
President--with Secretary Powell.
    Mr. Johnson. Thank you.
    Would you disagree with that, Mr. Carafano?
    Dr. Carafano. I guess I am just a pessimist.
    Mr. Coffman. Okay. Mr. Smith, Ranking Member.
    Mr. Smith. Thank you, Mr. Chairman. That is fine. I wasn't 
sure if he was done or not.
    Mr. Coffman. Oh, I am sorry.
    Mr. Smith. But respect for Members' time, I think he is 
over time.
    Mr. Coffman. Okay. Very well.
    Mr. Smith. If you have any more questions, we could submit 
them for the record.
    I am sorry, and I think that will close our hearing. I 
don't think there are any more Members asking questions.
    I just want to again thank the chairman and thank the 
Members of the committee for having this hearing.
    Thank our witnesses. This beings us together for a very 
important issue.
    Mr. Affleck. Thank you very much.
    Mr. Smith. Thank you.
    Mr. Coffman. Hearing adjourned.
    [Whereupon, at 1:13 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           December 19, 2012

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           December 19, 2012

=======================================================================

      
              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

               Update on the Evolving Security Situation

                in the Democratic Republic of the Congo

              and Implications for U.S. National Security

                           December 19, 2012

    The House Armed Services Committee meets today to receive 
testimony on the situation in the Democratic Republic of the 
Congo (DRC).
    I would like to start by thanking my colleague and the 
committee's ranking member, Mr. Smith, for suggesting that we 
hold this hearing on the DRC. I believe that it will help the 
committee to understand the complexity of some of issues within 
Central Africa.
    The situation in the Democratic Republic of the Congo 
continues to evolve and is driven by a complex interplay of 
regional power dynamics as well as an intricate web of economic 
and social issues. What is clear is that the situation in the 
DRC is tragic for the innocent people caught in the conflict--
innocent people who are simply trying to raise their families 
and live their lives.
    As I have followed the media coverage of the situation in 
the DRC, I cannot help but reflect on the millions of innocent 
people around the world who are caught in fundamentally unjust 
and socially complex situations. These situations can make 
anyone's heart break and naturally leads one to consider the 
simple question: What can be done?
    Of course, the question--and likewise the answer--becomes 
more complex as we contemplate what can be done within the 
context of U.S. national security interests, constrained 
budgets, ongoing commitments in Afghanistan and around the 
globe, and potential future contingencies that the military has 
to be prepared to execute. Given the looming threat of 
sequestration, or further cuts to the military, I believe most 
of us on this Committee have become ever more focused on 
ensuring our military's missions are both essential and 
appropriately tailored.
    That said, there may also be options outside of the DOD to 
address the situation in the DRC. I understand that in the 
recent past, the Department of State conducted important 
diplomatic efforts such as the ``Tripartite Plus,'' which 
furthered stability in Central Africa--and within the DRC in 
particular. Although the Administration is no longer pursuing 
this particular effort, perhaps there are other, similar 
opportunities--given how the situation has negatively evolved 
in the DRC. Moreover, it seems the U.S. could pursue deeper 
diplomatic engagement with regional partners and our allies to 
leverage their knowledge, expertise, and resources to address 
this issue.
    Indeed, the world remains a complex and dangerous place. We 
cannot neglect to consider the linkages between instability in 
Central Africa and the global terrorist threat. But from 
Afghanistan, to Syria, to Iran, to North Korea, we also must 
recognize the existence of nonstate actors and regimes that 
directly threaten the United States and our allies. Therefore, 
we must ensure that our military is sufficiently resourced and 
that our national leaders prioritize our defense resources 
toward efforts that are appropriate for the U.S. military and 
our vital national security interests.
    I look forward to learning more about the situation on the 
ground as well as what the U.S. Government is doing to address 
the situation in the DRC.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

               Update on the Evolving Security Situation

                in the Democratic Republic of the Congo

              and Implications for U.S. National Security

                           December 19, 2012

    Thank you, Mr. Chairman. I would like to welcome our 
witnesses today and thank them for appearing to talk about this 
important topic.
    The United States faces complex national security 
challenges across Africa. The terrorism and violent extremism 
that plague the continent, along with instability, corruption, 
governance, poverty, illicit trafficking, and more, combine 
into a potent mix that threatens the long-term prospects of the 
African people, our interests, and the interests of our friends 
and partners. Nowhere are these challenges more apparent than 
in the Democratic Republic of Congo (DRC), particularly in the 
eastern portion of the country.
    The Eastern Congo has been mired in seemingly endless 
conflict and an insidious cycle of instability. It is a crisis 
that has, by some estimates, led to the death of over 5 million 
people over the last 14 years, an untold amount of sexual 
violence and the current displacement of nearly 1.5 million 
people.
    The United States has clear strategic national security 
interests in the DRC due to its size, location, and especially 
because instability within the DRC can breed instability within 
the broader region. The government of the DRC cannot project 
law and order in much of its territory nor secure its borders 
and we know that Al Qaeda and affiliated groups are present in 
East Africa and in West Africa and are looking for places for 
safe haven.
    Any U.S. effort to address this instability has to take a 
``whole-of-government'' approach. Diplomacy and development, 
under the direction of the State Department and U.S. Agency for 
International Development (USAID), have the primary 
responsibility. But they can do nothing if there is no 
security. To that end, then, the Department of Defense, through 
U.S. Africa Command (AFRICOM), has a significant role to play. 
Capacity-building efforts like those in place in Uganda to 
address the Lord's Resistance Army (LRA) are an example of the 
way in which AFRICOM can play a significant role in the whole-
of-government approach to promote American priorities within 
Africa and help inform our response to the Eastern Congo's lack 
of security.
    As AFRICOM has recognized, Africans are best suited to 
solve African security challenges. The U.S. has trained the 
first of what was originally intended to be multiple Congolese 
Army battalions in 2010. Our assistance provided for basic 
military training, of course, but also the sharing of values 
that are intrinsic to our armed forces, such as military 
justice, human rights, civil-military relations, rule of law 
and defense resource management--qualities that many military 
organizations in the region lack. From accounts on the ground, 
this battalion has been well regarded by those who have 
observed it in action. Too often the Congolese military (FARDC) 
are the perpetrators of violence and abuse. Additional training 
could go a long way toward the development of a meaningful 
Congolese security force that is not only capable but respects 
human rights.
    This process of enabling our partners to better deal with 
our shared security challenges is the way forward here. We have 
had success with this model in the Philippines, Somalia and 
Yemen, for a comparatively small amount of resources and 
troops. It is the right approach: it presents a light 
footprint, and it is also fiscally responsible in a time of 
tight resources.
    The key to any partnership is that both partners believe 
they share mutual interests and work toward mutual goals. The 
U.S. is fortunate in that we have a long-standing relationship 
with the DRC, Uganda, and Rwanda and so together we can work to 
achieve a long-term peaceful solution. As noted in the recent 
United Nations Group of Experts Report, however, the support 
DRC's neighbors are providing to the primary rebel group, M23, 
is deeply concerning and must stop. The United States has cut 
off military aid to Rwanda in response but more can be done to 
hold to account anyone providing significant support to the 
M23. Additionally, today the House will take up the Conference 
Report on the FY2013 National Defense Authorization Act, which 
will go a long way to reduce the financial support available 
for the M23 and potentially limit its ability to undermine 
stability in the region.
    While the challenges in the Eastern Congo may seem 
daunting, there is hope. It is an incredibly robust region with 
massive potential. The Congolese are anxious to grow and create 
greater opportunity, and end the constant displacement. If they 
can achieve peace and stability, there is an abundant amount of 
opportunity for the DRC, the region, and the world.
    I look forward to engaging with our expert witnesses today 
and continuing the dialogue about how best to achieve peace and 
stability in the Eastern Congo. Thank you, Mr. Chairman.

[GRAPHIC] [TIFF OMITTED] T9557.001

[GRAPHIC] [TIFF OMITTED] T9557.002

[GRAPHIC] [TIFF OMITTED] T9557.003

[GRAPHIC] [TIFF OMITTED] T9557.004

[GRAPHIC] [TIFF OMITTED] T9557.005

[GRAPHIC] [TIFF OMITTED] T9557.006

[GRAPHIC] [TIFF OMITTED] T9557.007

[GRAPHIC] [TIFF OMITTED] T9557.008

[GRAPHIC] [TIFF OMITTED] T9557.009

[GRAPHIC] [TIFF OMITTED] T9557.010

[GRAPHIC] [TIFF OMITTED] T9557.011

[GRAPHIC] [TIFF OMITTED] T9557.012

[GRAPHIC] [TIFF OMITTED] T9557.013

[GRAPHIC] [TIFF OMITTED] T9557.014

[GRAPHIC] [TIFF OMITTED] T9557.015

[GRAPHIC] [TIFF OMITTED] T9557.016

[GRAPHIC] [TIFF OMITTED] T9557.017

[GRAPHIC] [TIFF OMITTED] T9557.018

[GRAPHIC] [TIFF OMITTED] T9557.019

[GRAPHIC] [TIFF OMITTED] T9557.020

[GRAPHIC] [TIFF OMITTED] T9557.021

[GRAPHIC] [TIFF OMITTED] T9557.022

[GRAPHIC] [TIFF OMITTED] T9557.023

[GRAPHIC] [TIFF OMITTED] T9557.024

[GRAPHIC] [TIFF OMITTED] T9557.025

[GRAPHIC] [TIFF OMITTED] T9557.026

[GRAPHIC] [TIFF OMITTED] T9557.027

[GRAPHIC] [TIFF OMITTED] T9557.028

[GRAPHIC] [TIFF OMITTED] T9557.029

[GRAPHIC] [TIFF OMITTED] T9557.030

[GRAPHIC] [TIFF OMITTED] T9557.031

[GRAPHIC] [TIFF OMITTED] T9557.032

[GRAPHIC] [TIFF OMITTED] T9557.033

[GRAPHIC] [TIFF OMITTED] T9557.034

[GRAPHIC] [TIFF OMITTED] T9557.035

[GRAPHIC] [TIFF OMITTED] T9557.036

[GRAPHIC] [TIFF OMITTED] T9557.037

[GRAPHIC] [TIFF OMITTED] T9557.038

[GRAPHIC] [TIFF OMITTED] T9557.039

[GRAPHIC] [TIFF OMITTED] T9557.040

[GRAPHIC] [TIFF OMITTED] T9557.041

[GRAPHIC] [TIFF OMITTED] T9557.042

[GRAPHIC] [TIFF OMITTED] T9557.043

[GRAPHIC] [TIFF OMITTED] T9557.044

[GRAPHIC] [TIFF OMITTED] T9557.045

[GRAPHIC] [TIFF OMITTED] T9557.046

?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           December 19, 2012

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T9557.047
    
    [GRAPHIC] [TIFF OMITTED] T9557.048
    
    [GRAPHIC] [TIFF OMITTED] T9557.049
    
    [GRAPHIC] [TIFF OMITTED] T9557.050
    
    [GRAPHIC] [TIFF OMITTED] T9557.051
    
    [GRAPHIC] [TIFF OMITTED] T9557.052
    
    [GRAPHIC] [TIFF OMITTED] T9557.053
    
    [GRAPHIC] [TIFF OMITTED] T9557.054
    
    [GRAPHIC] [TIFF OMITTED] T9557.055
    
    [GRAPHIC] [TIFF OMITTED] T9557.056
    
    [GRAPHIC] [TIFF OMITTED] T9557.057
    
    [GRAPHIC] [TIFF OMITTED] T9557.058
    
    [GRAPHIC] [TIFF OMITTED] T9557.059
    
    [GRAPHIC] [TIFF OMITTED] T9557.060
    
    [GRAPHIC] [TIFF OMITTED] T9557.061
    
    [GRAPHIC] [TIFF OMITTED] T9557.062
    
    [GRAPHIC] [TIFF OMITTED] T9557.063
    
    [GRAPHIC] [TIFF OMITTED] T9557.064
    
    [GRAPHIC] [TIFF OMITTED] T9557.065
    
    [GRAPHIC] [TIFF OMITTED] T9557.066
    
    [GRAPHIC] [TIFF OMITTED] T9557.067
    
    [GRAPHIC] [TIFF OMITTED] T9557.068
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           December 19, 2012

=======================================================================

      
            RESPONSES TO QUESTIONS SUBMITTED BY MS. SANCHEZ

    Secretary Chollet. U.S. forces used the same Afghanistan model of 
training and fighting alongside the host nation counterparts as the 
model when training and equipping the FARDC 391st battalion and this is 
the same model currently being used to train other African forces today 
in areas such as Senegal, Mauritania, Niger, Uganda, Burundi, etc. Also 
building on the Afghanistan model, when training partner forces, DOD 
works to develop a training plan that meets the host-nation's 
requirements, which in the case of DRC and our training of the 391st, 
was a base line internal security capability.
    The geography and operational profile of Afghanistan and the 
Democratic Republic of the Congo (DRC) are very different; and many 
lessons learned do not necessarily translate directly to DRC. However, 
experiences in Afghanistan have built capable and competent Special 
Forces operators who have the necessary skill sets to engage with 
foreign forces be successful in developing their capabilities. Also, 
lessons learned from efforts to build partner capacity (BPC) in 
Afghanistan are also being incorporated into U.S. doctrine and training 
for BPC, and the Department of Defense believes this will have a 
positive impact on global BPC efforts. [See page 28.]

    Secretary Carson. Border security in the region is almost non-
existent. There is very little security along the borders. They are not 
clearly delineated. People move back and forth easily. Some of the 
areas are very mountainous. There are active volcanoes in and around 
Goma, and in both North Kivu and South Kivu. It is an enormous 
challenge also because of the enormous size of the country. This is a 
country that shares borders with nine other countries. As I said, 
geographically, it's as large as the eastern part of the United States, 
and certainly is twice as large as Western Europe. It also has several 
water borders. The Congo River divides the Democratic Republic of the 
Congo from the Republic of the Congo, known as Congo Brazzaville. And, 
there are several lakes that divide the country from its eastern 
neighbors.
    In addition to the challenges posed by the size and terrain of the 
border, the DRC military does not have the manpower or the expertise to 
undertake effective border security. We continue to urge the DRC 
government to recommit and accelerate its security sector reform 
efforts. We have provided extensive training to the DRC military and 
are prepared to provide additional training; however, none of it is 
directly aimed at border security.
    While border security is not one of the mandated tasks of the UN 
Peacekeeping Mission in the DRC (MONUSCO), the UN Security Council 
recently took note of and voiced no objection to the use of Unmanned 
Aerial Vehicles (UAVs) for MONUSCO's use. Rwanda, a member of the UN 
Security Council since January 2013, joined the consensus. While it is 
unclear who will supply the UAVs, they are expected to be used, in 
part, along the DRC/Rwanda border to help track armed groups and 
provide real-time intelligence. Imagery from the UAVs may also assist 
the work of the Expanded Joint Verification Mechanism (EJVM), a 
regional body tasked with investigating allegations of cross-border 
support.
    The UN is also weighing the option of integrating a regional peace 
enforcement brigade into MONUSCO. The force would consist of over 2,000 
African troops and would have a mandate to pursue aggressively the 
armed groups in the DRC, including the M23. While border security would 
not be a specific component of the force's mandate, greater border 
security could potentially result from its operations. [See page 30.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. FORBES

    Secretary Chollet. Some fiscal year (FY) 2013 budgets are still 
being determined. Assuming funding amounts remained the same, the U.S. 
Government planned to provide approximately $6.5 million in military 
assistance to the Government of Rwanda in FY 2013.
    The majority of these funds support HIV/AIDS prevention and Rwandan 
peacekeeping missions in Darfur and South Sudan. The Department of 
Defense (DOD) portion of this assistance is approximately $3.5 million, 
which includes Overseas Humanitarian, Disaster, and Civic Aid (OHDACA) 
funding to renovate a school and community center and DOD HIV/AIDS 
Prevention Program (DHAPP) funding to help counter the effects of HIV/
AIDS within the Rwandan armed forces.
    Regarding the Democratic Republic of the Congo (DRC), the U.S. 
Government plans to provide approximately $21.7 million in security 
assistance in FY 2013. Approximately $15 million of this assistance is 
peacekeeping operations funding to build DRC military capacity. The DOD 
portion of this assistance is approximately $396 thousand in OHDACA 
funds to renovate hospitals in the DRC.
    Regarding questions as to whether the assistance provided to these 
countries is adequate and how funding should be prioritized for these 
countries in light of future budget constraints, the needs in Africa 
are always significant and there is always a need for more funding as 
DOD works to build the capacity of partner forces on the continent. In 
particular, the DRC has a significant need for assistance, but the U.S. 
Government should closely monitor the DRC's ability to absorb 
additional assistance.
    USAFRICOM's priorities remain to counter threats to the United 
States emanating from Africa and to be in a position to respond 
appropriately to areas of instability. [See page 12.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. JOHNSON

    Secretary Carson. Let me say, thank you very much for the question. 
There is no question that conflict minerals contribute to sustaining 
conflict in Africa. Groups are able to take control of mineral rich 
areas and then to smuggle those minerals out through neighboring states 
into the international market. And so it does play a role in sustaining 
these kinds of conflicts. And this is why legislation passed here by 
the Congress has been useful in putting a check and a control over what 
U.S. companies can buy in places like the Democratic Republic of the 
Congo.
    Reducing the illegal trade in minerals and increasing conflict-free 
sourcing diminishes the revenue available to help sustain armed groups. 
Also, when there are jobs available to support conflict-free mining 
areas, the incentive to join a rebel group as a means of making a 
living is not as strong. Mineral smuggling also is one of the 
incentives for outside interference in the DRC. Smuggling by armed 
groups can benefit supporters of those groups by providing them with 
revenue or with the minerals themselves. We are working with our 
international and regional partners to increase conflict-free sourcing, 
counter mineral smuggling and address this contributing factor to the 
region's destabilization. [See page 22.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MS. SPEIER

    Secretary Carson. Of the so-called ``FARDC Five,'' senior officials 
of the Congolese military accused of raping women and girls in separate 
incidents in the eastern DRC between 2004 and 2006, three were 
subsequently arrested in response to U.S. and international lobbying 
efforts: Brigadier General Jerome Kakwavu, Lt. Col. Bebimobuli 
Engandela (a.k.a. Colonel 106), and Colonel Safari. The highest ranking 
officer of the FARDC Five, BG Kakwavu, remains on trial in Kinshasa for 
two counts of rape as a war crime. A second, broader file against 
Kakwavu, opened in May 2012, includes two acts of torture as a war 
crime, one act of murder as a war crime, and nine acts of murder as 
crimes against humanity. Charges are still pending against Lt. Col. 
Bebimobuli, who remains in prison in Kinshasa; proceedings have been 
delayed pending the transfer of his case to Bukavu and related 
logistical as well as security challenges. Bebimobuli's prosecution is 
also complicated by the ongoing insecurity in the eastern DRC, which 
has also prevented prosecutors/investigators/police from reaching 
witnesses. Colonel Safari was acquitted by a military court in October 
2011. The remaining two officers of the ``FARDC Five'' were removed 
from their command positions--a significant step--but subsequently 
fled. One of those officers, Colonel Mosala, remains at large. While 
charges are still pending against Mosala, the case hinges on the 
willingness of the sole victim to press charges. The other, Major 
Pitchen, was reported dead in April 2012. The arrests of such high-
ranking officers--including Kakwavu, the first general officer to be 
prosecuted for rape by a military tribunal--represent significant 
progress, but major challenges remain to ending impunity and protecting 
Congolese women and girls from sexual and gender-based violence (SGBV) 
at the hands of security forces. We remain engaged not only in pursuing 
the prosecutions of these individuals, but also in pressing the GDRC to 
continue to arrest any official implicated in human rights violations 
as part of comprehensive security sector reform. U.S. and UN 
assistance, as well as that of other bilateral partners and non-
governmental organizations, to the Congolese military justice system 
through prosecution support cells and other programs have helped 
provide the tools, expertise, and skills that prosecutors and judges 
need to adjudicate cases such as these. Our programs and our diplomatic 
engagement have also helped to begin generating and sustaining the 
political will to take on cases so as to end impunity for the 
perpetrators of SGBV, regardless of rank. We continue to monitor 
incidents of alleged sexual violence in conflict, wherever they occur. 
[See page 28.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           December 19, 2012

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. GARAMENDI

    Mr. Garamendi. What actions are being taken by the Department of 
Defense to address the trade of ivory within the Democratic Republic of 
the Congo and central Africa?
    Secretary Chollet. The Obama administration strongly condemns 
poaching and other wildlife trafficking crimes. Not only do these 
activities affect natural resources, but they pose a real threat to 
security public health, and economic prosperity. Counter-poaching is 
largely a law enforcement matter that is typically undertaken by police 
forces, but USAFRICOM will look for opportunities to leverage their 
engagements with African militaries to support counter-poaching efforts 
where possible.
    The presence of USAFRICOM enables greater engagement with African 
militaries in efforts to build their capacity for a broader range of 
military missions. Training on international legal norms is also a key 
component of USAFRICOM engagement. DOD believes the most effective way 
to reduce illegal activities is through African militaries that could, 
if so directed by their governments, contribute to counter-poaching 
efforts.
    The Department of State (DOS) is the lead agency for coordinating 
an interagency approach to address the increase in poaching and DOD 
participates in their efforts to build a whole-of-government approach 
to counter-poaching.
    Mr. Garamendi. Does the rebel group known as the March 23rd 
Movement (M23) have any involvement in the trade of ivory in the 
Democratic Republic of the Congo or in central Africa?
    Secretary Chollet. The Department of Defense has not identified any 
conclusive evidence that M23 rebels are directly involved in the 
hunting and illegal killing of elephants. M23 operates in the highlands 
and too far south and east for ivory. M23 funds itself primarily 
through taxing the movement of goods and people through its territory. 
M23 also extorts labor and goods from locals.

    Mr. Garamendi. Does the rebel group known as the March 23rd 
Movement (M23) have any involvement in the trade of ivory in the 
Democratic Republic of the Congo or in central Africa?
    Secretary Carson. We have seen no specific reporting that would 
indicate that M23 is involved in poaching or, specifically, involved in 
the trade of ivory. At the same time, M23 does control large swaths of 
Virunga National Park in the Democratic Republic of the Congo where 
there is a small elephant population, providing a limited possibility 
that M23 is directly or indirectly benefiting from the trade in ivory, 
or from other forms of wildlife poaching. We will continue to assess 
the situation and respond accordingly should we obtain information of 
M23's direct involvement in the ivory trade.

    Mr. Garamendi. Does the rebel group known as the March 23rd 
Movement (M23) have any involvement in the trade of ivory in the 
Democratic Republic of the Congo or in central Africa?
    Dr. Frazer. The M23 rebel group has a diverse strategy for 
generating revenue to finance its activities. In addition to 
allegations they have been extracting payments for goods entering at 
border crossings, M23 rebels have also been accused of smuggling gold 
and other minerals across the Democratic Republic of Congo's borders. 
However, at this time there is no direct evidence that demonstrates any 
involvement of the M23 group in the illegal ivory trade in central 
Africa.

    Mr. Garamendi. Does the rebel group known as the March 23rd 
Movement (M23) have any involvement in the trade of ivory in the 
Democratic Republic of the Congo or in central Africa?
    Dr. Carafano. The ivory trade in the Democratic Republic of Congo 
(DRC) is widespread, specifically in Garamba National Park and the 
Okapi Reserve, located in the northeastern part of the country. 
International crime syndicates, rebel groups, militias, militaries from 
neighboring countries and even the DRC's own troops, have either 
participated in the poaching industry or have been complicit in such 
activity. The ivory trade is particularly useful to groups such as the 
Lord's Resistance Army (LRA), the Rwandan Democratic Liberation Forces 
(FDLR) and Janjaweed fighters from Sudan and Chad who lack steady 
sources of income. While M23 has only been in existence since last 
spring, its predecessor, the National Congress for the Defense of the 
People (CNDP) (disbanded in March 2009) allegedly participated in 
poaching. Poaching is by no means limited to the DRC or Central Africa. 
Poaching is a threat to elephant and rhino populations across the 
continent--from Chad to Kenya to South Africa. The terrorist group, al-
Shabaab in Somalia has reportedly sought to expand its income through 
the ivory trade in Kenya.

    Mr. Garamendi. a) Does the rebel group known as the March 23rd 
Movement (M23) have any involvement in the trade of ivory in the 
Democratic Republic of the Congo or in central Africa?
    b) Does the Eastern Congo Initiative undertake any initiatives to 
address the trade of ivory in the Democratic Republic of the Congo or 
central Africa?
    c) Does the Eastern Congo Initiative have any recommendations as to 
initiatives that the Department of Defense and/or Department of State 
could undertake to address the trade of ivory in the Democratic 
Republic of the Congo or central Africa?
    Mr. Affleck. Eastern Congo Initiative is unable to determine 
whether or not M23 is involved in ivory trade. We know, however, that 
poaching remains a very serious problem in the region. It is a 
lucrative business fueled by high demand in international markets. In 
the past, ECI has partnered with ICCN at the Virunga National Park in 
North Kivu to help stem poaching and other activities that are 
detrimental to the ecosystem. For instance, we have funded economic 
development initiatives with the national park to provide new income 
opportunities for communities surrounding the park. ECI also 
operationally supported the national park during a critical time period 
when M23 took control of the vast majority of Virunga National Park. We 
have to view poaching and related activities in the context of the 
prevailing insecurity that plagues Congo, particularly in the eastern 
provinces. Just like militiamen seem to continuously elude DRC security 
forces, poachers are often better equipped and more motivated than law 
enforcement agents. Thus, the security of national parks and the 
protection of endangered species need to be part of security sector 
reform initiatives. The United States Government has in the past 
assisted Virunga National Park to stem poaching through the U.S. Fish 
and Wildlife Department and the best way for the Department of Defense 
and the Department of State to help fight and stem poaching and ivory 
trade would be for them to lead international engagement in DRC 
security sector reform. Congo depends on international donors for 
nearly every critical function of the state. As one of DRC's top 
donors, the U.S. is well-positioned to encourage the government of 
Congo to focus efforts on this important aspect of the country's 
progress. Such international engagement would require substantial 
planning, logistical and training support from the U.S. and its allies 
and other partners. Without competent professional military and law 
enforcement institutions, DRC's territory will continue to provide safe 
haven to various armed groups, which prey on the civilian population 
and illegally exploit Congo's resources. In the absence of these 
critical institutions, poachers and their networks will also continue 
to thrive.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
